No.

SUPREME COURT OF THE UNITED STATES

MARTIN REINER
Petitioner
vs.
JOHN ROBERTS, ELENA KAGAN, LAURIE WOOD, MARA SILVER,
AND CALIFORNIA STATE BAR
Respondents.

On Petition for Writ of Certiorari to the United States Court of Appeals
for the District of Columbia Circuit

APPENDIX

Martin Reiner, Pro Se
1414 Greenfield Avenue, #302
Los Angeles, California 90025
Telephone: (310)709-0236

APPENDIX TABLE OF CONTENTS
APPENDIX A - The 2-page USCOA case number 20-5190 December 3,2020 Judgment
APPENDIX B - The 2-page USDC-DC case number 1:20-cv-00031-APM April 3,2020
Memorandum Opinion, the 1-page April 3, 2020 Dismissal Order, the 1-page
April 29, 2020 Minute Order, and the 1-page May 19,2020 Minute Order
APPENDIX C - The 1-page USCOA case number 20-5190 March 2,2021 Order denying
Rehearing
APPENDIX D - The 31-page verified Complaint in USDC-DC case number 1:20-cv-00031APM and the 39-page Exhibits
APPENDIX E - The 1-page (page 10) of the judgment roll in the disposition of CSBar Court
case number 09-0-10207
APPENDIX F - The 2-page January 15,2020 letter to Roberts
APPENDIX G - The 1-page February 24, 2020 e-mail from United States Attorney Brenda
. Gonzalez-Horowitz
APPENDIX H - The 36-page Appellant’s Opening Brief in USCOA case number 20-5190
APPENDIX I - The 28-page Petition for Rehearing in USCOA case number 20-5190

r

APPENDIX A

USCA Case #20-5190

Filed: 12/03/2020

Document #1874313

ptmteh

Page 1 of 2

(Havert nf

For The District of Columbia Circuit

September Term, 2020

No. 20-5190

1:20-cv-00031 -APM
Filed On: December 3, 2020
Martin Reiner,
Appellant
v.
John Roberts, et al.,
Appellees
ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
BEFORE:

Rogers and Walker, Circuit Judges; Sentelle, Senior Circuit Judge
JUDGMENT

This appeal was considered on the record from the United States District Court
for the District of Columbia and on the brief and appendix filed by appellant. See Fed.
R. App. P, 34(a)(2); D.C. Cir. Rule 34(j). It is
ORDERED AND ADJUDGED that the district court’s dismissal order, filed April
3, 2020, and the district court’s subsequent minute orders denying reconsideration, filed
April 29, 2020, May 19, 2020, and June 5, 2020, be affirmed. The district court
correctly concluded that it lacks subject matter jurisdiction over appellant’s complaint.
Toolev v. Naoolitano, 586 F.3d 1006, 1009 (D.C. Cir. 2009) (“A complaint may be
dismissed on jurisdictional grounds when it is ‘patently insubstantial,’ presenting no
federal question suitable for decision.”) (quoting Best v. Kelly, 39 F.3d 328, 330
(D.C.Cir.1994)). And the Rooker-Feldman doctrine is applicable to appellant’s claim
seeking review of his disbarment by the California Supreme Court. See Gray v. Poole,
275 F.3d 1113, 1119 (D.C. Cir. 2002) (“The Rooker-Feldman doctrine prevents lower
federal courts from hearing cases that amount to the functional equivalent of an appeal
from a state court.”); Reiner v. California, 612 F. App'x 473, 474 (9th Cir. 2015) (holding
that the district court properly dismissed appellant’s claim under the Rooker-Feldman
doctrine where the claim challenged a prior order of suspension by the California
Supreme Court); Scott v. Frankel, No. 15-5028, 2015 WL 4072075, at *1 (D.C. Cir.
June 8, 2015) (declining to apply a fraud exception to the Rooker-Feldman doctrine
because “appellant has not suggested any reason why he could not have presented his
claims of fraud in the state court disciplinary proceeding.”).

USCA Case #20-5190

Filed: 12/03/2020

Document #1874313

Page 2 of 2

Pmteh JStates Olomrt of ^Appeals
For The District of Columbia Circuit

September Term, 2020

No. 20-5190

Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk
is directed to withhold issuance of the mandate herein until seven days after resolution
of any timely petition for rehearing or petition for rehearing en banc. See Fed. R. App.
P. 41(b); D.C. Cir. Rule 41.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Page 2

Is/
Michael C. McGrail
Deputy Clerk

APPENDIX B

Case l:20-cv-00031-APM Document 9 Filed 04/03/20 Page 1 of 2

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

MARTIN REINER,
Plaintiff,
v.

JOHN ROBERTS, et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)

Case No. 20-cv-00031 (APM)

MEMORANDUM OPINION
Plaintiff Martin Reiner brings this action primarily under 42 U.S.C. § 1983 asserting civil
rights claims against Chief Justice John Roberts; Justice Elena Kagan; two clerks of the
U.S. Supreme Court, Laurie Wood and Mara Silver; and the California State Bar. Compl., ECF
No. 1. Because Plaintiffs claims are patently frivolous, the court sua sponte dismisses the
complaint and this action.
“[FJederal courts are without power to entertain claims otherwise within their jurisdiction
if they are so attenuated and unsubstantial as to be absolutely devoid of merit, wholly insubstantial,
[or] obviously frivolous. . . .” Hagans v. Lavine, 415 U.S. 528, 536—37 (1974) (citations and
internal quotation marks omitted); see also Tooley v. Napolitano, 586 F.3d 1006, 1009 (D.C. Cir.
2009) (“A complaint may be dismissed on jurisdictional grounds when ‘it “is patently
insubstantial,” presenting no federal question suitable for decision.’”) (quoting Best v. Kelly,
39 F.3d 328,330 (D.C. Cir. 1994)). Claims are unsubstantial and frivolous if they are “essentially
fictitious,” or advance “bizarre conspiracy theories,” “fantastic government manipulations of

Case l:20-cv-00031-APM Document 9 Filed 04/03/20 Page 2 of 2

[one’s] will or mind,” or some type of “supernatural intervention.” Best, 39 F.3d at 330. In such
cases, a district court may dismiss the case sua sponte. See id.
So far as the court can tell, Plaintiffs complaint seems to allege a conspiracy among
Defendants to deprive him of his law license without due process of law. See Compl. 1fl[ 12, 27,
31—36. His complaint starts with his sanction in state administrative proceedings, id.

19—20,

disciplinary proceedings before the California State Bar, id. H 21, followed by appeals to the
California Supreme Court, id.

23—28, and ultimately the U.S. Supreme Court, id. Tjf 31—32. The

common thread through the complaint seems to be that Defendants combined to deny Plaintiff his
constitutional rights.
The court is mindful that complaints filed by pro se litigants are held to less stringent
standards than those applied to formal pleadings drafted by lawyers. See Haines v. Kerner, 404
U.S. 519, 520 (1972). But Plaintiffs claims suggesting “bizarre conspiracy theories” are clearly
fantastic, delusional, and “essentially fictitious.” Best, 39 F.3d at 330. Accordingly, the court will
dismiss the complaint and this action for lack of subject-matter jurisdiction. Plaintiff s Motion for
Summary Judgment, ECF No. 3, and Motion to Take Judicial Notice, ECF No. 4, are denied.
A separate order accompanies this Memorandum Opinion.

^-''''Amit P. Mehta
United States District Court Judge

Dated: April 3,2020

2

Case l:20-cv-00031-APM Document 10 Filed 04/03/20 Page 1 of 1

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA

MARTIN REINER,
Plaintiff,
v.
JOHN ROBERTS, et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)

Case No. 20-cv-00031 (APM)

ORDER
For the reasons set forth in the court’s Memorandum Opinion, ECF No. 9, Plaintiffs
Motion for Summary Judgment, ECF No. 3, and Motion to Take Judicial Notice, ECF No. 4, are
denied. Plaintiffs Complaint, ECF No. 1, is dismissed with prejudice.
This is a final, appealable order.

Dated: April 3, 2020

^AmffPT Mehta
:ed States District Court Judge

U.S. District Court
District of Columbia
Notice of Electronic Filing
The following transaction was entered on 4/29/2020 at 3 :03 PM and filed on 4/29/2020
REINER v. ROBERTS et al
Case Name:
1:20-cv-00031-APM
Case Number:
Filer:
WARNING: CASE CLOSED on 04/03/2020
Document Number: No document attached
Docket Text*
MINUTE ORDER denying Plaintiffs Rule 60 Motion, ECF No., 12, and Plaintiffs
Motion to Take Judicial Notice, ECF No. 11. Plaintiff offers no valid basis under
Federal Rule of Civil Procedure 60 to revisit the court's Memorandum Opinion and
Order, ECF Nos. 9,10, which dismissed this action for lack of subject matter
jurisdiction. In addition, Plaintiffs motion attempts to clarify that he seeks review
and reversal of his disbarment by the California state bar court, Matter of Reiner,
No. 14-N-06382, 2016 WL 7100490 (Cal. Bar Ct. Nov. 22, 2016). See Pl.'s R. 60 Mot.,
ECF No. 12 at 4, 6 (asserting that his disbarment did not satisfy the "required
burden of proof," and seeking "due restoration of [his] law license and an award
of damages"). This court lacks jurisdiction to consider what is, in effect, a
collateral attack on the decision of a state court. See Exxon Mobil Corp. v. Saudi
Basic Indus. Corp., 544 U.S. 280, 284 (2005) (holding that, under the RookerFeldman doctrine, district courts lack jurisdiction over "cases brought by statecourt losers complaining of injuries caused by state-court judgments rendered
before the district court proceedings commenced and inviting district court
review and rejection of those judgments"). Plaintiffs Motion to Take Judicial
Notice, ECF No. 11, is denied as moot. Signed by Judge Amit P. Mehta on
04/29/2020. (Icapm2)

U.S. District Court
District of Columbia
Notice of Electronic Filing
The following transaction was entered on 5/19/2020 at 10:03 AM and filed on 5/19/2020
REINER v. ROBERTS et al
Case Name:
1:20-cv-00031-APM
Case Number:
Filer:
WARNING: CASE CLOSED on 04/03/2020
Document Number: No document attached
Docket Text:
MINUTE ORDER denying [14] Motion for Relief from Judgment. Plaintiff presents
no argument that would warrant reconsideration of the court's Minute Order of
April 29, 2020. Plaintiff may be correct that the California State Bar Court is a
state administrative agency to which the Rooker/Feldman doctrine does not
apply, but the doctrine does apply to the decision of the California Supreme Court
adopting the Bar Court's recommendation and entering an order disbarring
Plaintiff, In re Martin B. Reiner on Discipline, 2017 Cal. LEXIS 2287 (March 22,
2017). See Scott v. Frankel, 77 F. Supp. 3d 124 (D.D.C. 2015) (applying
Rooker/Feldman doctrine where the "plaintiff effectively [sought] to collaterally
attack the state court judgment suspending his license to practice law"); Reiner v.
California, 612 F. App'x 473 (9th Cir. 2015) (applying Rooker/Feldman to foreclose
this plaintiffs challenge to his order of suspension by the California Supreme
Court). Moreover, as to Plaintiffs claim that Rooker/Feldman does not foreclose a
collateral attack where a state court decision is secured through "extrinsic fraud,"
the D.C. Circuit has never expressly embraced such a fraud exception in a
published decision, but it has acknowledged it in an unpublished opinion, Scott
v. Frankel, No. 15-5028, 2015 WL 4072075 (D.C. Cir. June 8, 2015) (per curiam).
"Extrinsic fraud is conduct which prevents a party from presenting his claim in
court." Id. (quoting Kougasian v. TSML, Inc., 359 F.3d 1136,1140 (9th Cir. 2004)).
The court in Frankel held that, even if it were to recognize the exception, it would
not apply in that case because "appellant has not suggested any reason why he
could not have presented his claims of fraud in the state court [ ] proceeding." Id.
The same is true here. Plaintiff offers no reason why he could not have presented
his claims of fraud in the state disciplinary proceedings. See Reiner v. California
Dep't of Indus. Relations, No. CV 12-08649 JST RZ, 2012 WL 7145706, at *4 (C.D.
Cal. Dec. 18, 2012) (rejecting similar claim of "extrinsic fraud" by this plaintiff).
Signed by Judge Amit P. Mehta on 05/19/2020. (Icapm2)

APPENDIX C

USCA Case #20-5190

Filed: 03/02/2021

Document #1888014

plmieb

Page 1 of 1

Cnurt nf Appeals

For The District of Columbia Circuit

September Term, 2020

No. 20-5190

1:20-cv«00031 -APM
Filed On; March 2, 2021
Martin Reiner,
Appellant
v.
John Roberts, etal.,
Appellees

BEFORE:

Srinivasan, Chief Judge, and Henderson, Rogers, Tatel, Garland,*
Millett, Pillard, Wilkins, Katsas, Rao, and Walker, Circuit Judges,
and Sentelle, Senior Circuit Judge
ORDER

Upon consideration of the petition for rehearing en banc, and the absence of a
request by any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/si
Daniel J. Reidy
Deputy Clerk

‘Circuit Judge Garland did not participate in this matter.

i

APPENDIX D

Case 1:20-CV-00031-APM Document 1 Filed 01/03/20 Page 1 of 31
r

1
2
3

Martin Reiner
1414 Greenfield Avenue, #302
Los Angeles, California 90025
Tel. (213)822-6296
Plaintiff Pro Se Martin Reiner

KECEJVEI)
Mail ki»t»»

4

3

’

JAN -3 2020

5
6
7
UNITED STATES DISTRICT COURT
8

FOR THE DISTRICT OF COT .1JMRTA

9
10

MARTIN REINER,
Plaintiff,

11
12

vs.

13

JOHN ROBERTS, ELENA KAGAN,
LAURIE WOOD, MARA SILVER,
CALIFORNIA STATE BAR and
DOES 1 through 10,

14
15

Defendants.
16
17
18

)
)
)
)
)
)
)
)
)
)
)
)

Case: 1:20-cv-00031 JURY DEMAND
Assigned To : Mehta, Amit P.
Assign. Date: 1/3/2020
Description: Pro Se Gen. Civ. (F-DECK)
EXHIBITS WHICH AKE ESSENTIAL
TO THE DETERMINATION OF THE
COMPLAINT ARE ATTACHED
PURSUANT TO LOCAL CIVIL RULE 5.1(e)
JURY TRIAL REQUESTED

I. INTRODUCTION
1. Respectfully, I, Martin Reiner, the Plaintiff herein, make this complaint and its two Claims

19

against the Defendants herein (l)as a matter of law, pursuant to Title 42 United States Code

20

Section 1983 (“42 USC 1983"), Title 28 United States Code Section 2201 (“28 USC 2201"), and

21

Title 28 United States Code Section 2202 (“28 USC 2202"), and, equally, (2)as a matter of equity,

22

pursuant to HAZEL-ATLAS GLASS CO. vs. HARTFORD-EMPIRE CO. 322 U. S. 238 (1944)

23

(“HAZEL”).

24

n. JURISDICTION AND VENUE

25

2. This United States District Court has subject matterjurisdiction over this lawsuit under Title 28

26

United States Code Section 1331 and Title 28 United States Code Section 1343.

27

3. Venue is proper in this District of Columbia District Court because the events imposing the

28

complained-ofwrongdoing giving rise to the claims being made herein occurred within this District,

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 2 of 31

1

specifically at 1 First Street, N. E., Washington D. C. 20543.

2

01. THE NATURE OF THE COMPLAINED-QF WRONGDOING

3

4. This complaint addresses and seeks redress and relief from harm which is being imposed upon

4

me, and upon our society, and upon our federal Constitution, from a scandal of government

5

corruption involving judicial officers and court clerks subverting and obstructing justice similar in

6

nature to the scandal ofjudicial corruption that was revealed by the Federal Bureau of

7

Investigation’s 6 ‘Operation Greylord”. Specifically, the scandal revealed in this lawsuit involves the

8

corruption ofjudicial officers and court clerks tampering with the administration of justice by

9

“fixing” litigation to contrive a disposition by the imposition of extrinsic fraud upon the institution

10

of the Court in deprivation of the federal constitutional right of Procedural Due Process to cover-up

11

the underlying participation of government officials, including judicial officers, in the criminal

12

malfeasance of insurance fraud. The subject, complained-of corruption scandal revealed in this

13

lawsuit dwarfs the one revealed by “Operation Greylord”, as the participants involved in this subject

14

scandal include persons who are working at the Supreme Court of the United States (“SCOTUS”).

15

The investigation conducted in “Operation Greylord”, and the convictions ofjudicial officers and

16

court clerks that were obtained thereby, demonstrates that corruption by human failings certainly

17

does occur within American jurisprudence, and that it is necessary to safeguard the integrity of

18

American jurisprudence, the vitality of the federal Constitution, and the trust that the American

19

public places in the institutions set up by our society to administer justice, from such corrupting

20

defilement. This United States District Court lawsuit serves that necessity for such safeguard.

21

IV. THE PARTIES

22
23

5.1, Martin Reiner, am the Plaintiff herein, and at all times relevant, I have been a natural person,
and a citizen of the United States of America, living in Los Angeles, California.

24

6. John Roberts (“Roberts”) is a defendant herein, and at all times relevant, is a natural person

25

and the Chief Justice of SCOTUS, who is being sued as to each of the claims being presented in

26

this complaint, solely for prospective injunctive relief, pursuant to the case law authority of

27

PULLIAM vs. ALLEN 466 U. S. 522 (1984) (“PULLIAM”), in Roberts’ official capacity, and,

28

equally, in both (l)Roberts’ judicial capacity, to rectify the violation of an existing declaratory

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 3 of 31

decree, and (2)Roberts’ administrative capacity, in accordance with the holding in FORRESTER vs.
2

WHITE 484 US 219, at 229, (1988) (“FORRESTER”), that judicial officers can be sued in their

3

administrative capacity, and that activities to be rendered in “overseeing the efficient operation of

4

a court” are administrative, and not adjudicative, in nature.

5

7. Elena Kagan (“Kagan”) is a defendant herein, and at all times relevant, is a natural person

6

and an Associate Justice of SCQTUS, who is being sued in her official capacity as to each of the

7

claims being presented in this complaint, but solely in Kagan’s administrative capacity, and not in

8

Kagan’s judicial capacity, and solely to obtain prospective injunctive relief, pursuant to

9

the legal authority of the PULLIAM case.

10

8. Laurie Wood (“Wood”) is a defendant herein, and at all times relevant, is a natural person and

11

employed as a clerk of SCOTUS, who is being sued in her official capacity in the claim being

12

presented in this complaint pursuant to 42 USC 1983, as a joint participant with state actors, as

13

recognized by BILLINGS vs. UNITED STATES 57 F. 3d 797 (9th Cir. 1995) (“BILLINGS”).

14

9. Mara Silver (“Silver”) is a defendant herein, and at all times relevant, is a natural person and

15

employed as a clerk of SCOTUS, who is being sued in her official capacity in the claim being

16

presented in this complaint pursuant to 42 USC 1983 as a joint participant with state actors, as

17

recognized by the BILLINGS case.

18

10. The California State Bar (“CSBAR”) is a defendant herein, and at all times relevant,

19

is a person, specifically an artificial person in the form of a corporation, which can sue and be sued

20

as specified by California Business and Professions Code Section 6001, and who is a person

21

specified by Title 1 United States Code Section 1 as being subject to liability under 42 USC

22

1983. The CSBAR is being sued in its personal capacity in both (l)this lawsuit’s First Claim, which

23

is being made pursuant to the HAZEL case and DENNIS vs. SPARKS 449 U. S. 24 (1980)

24

(“DENNIS”), for all manner of redress and relief, including declaratory relief, injunctive relief,

25

compensatory damages, and punitive damages, and (2)this lawsuit’s Second Claim, which is being

26

made pursuant to 42 USC 1983,28 USC 2201,28 USC 2202, and the DENNIS case. The

27

CSBAR is being so sued in this lawsuit because, with regard to each of those two claims being made

28

in this lawsuit, the CSBAR, as my litigation opponent, jointly participated withjudicial officers and

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 4 of 31

1

court clerks in imposing extrinsic fraud upon me, and upon the institution of the Court, in tampering

2

with the administration of justice by the grave injustice of subjecting me, under color of authority

3

of state law, to the wrongful deprivation of my federal constitutional right of Procedural Due

4

Process. The CSBAR is being so sued in this lawsuit because, as to federal law claims made against

5

the CSBAR, the CSBAR is held to not be a state agency, and does not enjoy Eleventh Amendment

6

immunity, KELLER vs. STATE BAR OF CALIFORNIA 496 U. S. 1 (1990) (“KELLER”).

7

11. The DOE Defendants in this lawsuit, indicated as DOE Defendants 1 through 10, are so

8

presently named because their true names are unknown and they are being sued in each of the two

9

claims being presented in this complaint by such fictitious names. Upon learning their true names,

10

amendment of die complaint herein will be sought to so identify such DOE Defendants by their

11

true names.

12

12. The CSBAR, Wood, and Silver, the judicial officers indicated below, as well as each of the

13

DOE Defendants, have each jointly participated, either as co-conspirators of one another, and/or

14

as mutual agents of one another, in intentionally and purposefully committing the subject,

15

complained-of wrongdoing, either by (l)willful affirmative action and/or (2)willful inaction when

16

under a duty to act, and/or (3)wrongful ratification of die subject, complained-of wrongdoing. The

17

nature of the subject, complained-of wrongdoing is simultaneously, both civil malfeasance

18

governed by 42 USC 1983, as well as the HAZEL case, and simultaneously as criminal

19

malfeasance governed by Title 18 United States Code Section 241 (“18 USC 241”), Tide 18

20

United States Cose Section 242 (“18 USC 242"), as well as Title 18 United States Code Section

21

1512(c)(2) (“18 USC 1512”), which is being so committed as a pattern and practice of engaging

22

in such malfeasance.

23 V. THE LAW GOVERNING THIS CASE

24

13. In addition to 42 USC 1983, governing the adjudication of this United States District Court

25

lawsuit are two other areas of the law - (l)the law concerning null and void court orders, mid (2)the

26

law concerning extrinsic fraud being imposed upon the institution of the Court.

27

14. Court orders are null and void when they are premised on a violation of due process, UNITED

28

STUDENT AID FUNDS. INC, vs. ESPINOZA 559 U. S. 260 (2010) (“UNITED”), at pages 270-

L-|

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 5 of 31

1

271. Due Process requires that litigants be provided (l)notice of the litigation, (2)a meaningful

2

opportunity to be heard so as to have a meaningful opportunity to defend, (3)a disposition consistent

3

with the governing law’s application to the facts adduced by the evidence, and (4)a neutral and

4

impartial decision-maker, GOLDBERG vs. KELLY 397 U. S. 254 (1970) (“GOLDBERG”), at page

5

271. An order which purports to convict a person of a charge prosecuted when the burden of proof

6 has not been met, is per se null and void, as such conviction rests upon the deprivation of Procedural
7

Due Process, JACKSON vs. VIRGINIA 443 U. S. 307 (1979) (“JACKSON”). The JACKSON case

8

provides that one of the most fundamental aspects of American Jurisprudence has been that under

9

no circumstance shall a person suffer the onus of a conviction “except upon sufficient proof... of

10

every element of the offense”, JACKSON at page 307, as “a conviction based upon a record wholly

11

devoid of any relevant evidence of a crucial element of the offense charged is constitutionally

12

infirm”, JACKSON at page 314. To allow these legal principles - (1) that the burden of proof must

13

be met in order to issue a conviction of a charge prosecuted, and (2)that a conviction is null and void

14

if it issues in defiance of a failure to meet the burden of proof - to be in the slightest degree infringed .

15

upon would be constitutionally intolerable because such infringement, per se, would remove from

16 society the constitutional protection of the right of Procedural Due Process and that right’s provision
17

of fundamental fairness. Yet, that intolerable subversion of American Jurisprudence - of imposing

18

a conviction of a charge in defiance of the admitted failure to have met the burden of proof - is the

19 wrongdoing complained-ofherein. This lawsuit (l)confronts such a wrongful conviction which was
20

imposed upon me in defiance of the burden of proof admittedly not having been met, as to a charge

21

that was contrived against me, by the wrongful deprivation of my federal constitutional right of

22

Procedural Due Process, and (2)seeks to have that wrongdoing rectified by having that null and void

23

conviction declared null and void, and for the provision of all other proper redress and relief.

24

15. It is extremely important for the United States District Court to be fully cognizant of the

25

consequence of an order being null and void. An order which is null and void by virtue of it being

26

based upon the deprivation of the federal constitutional right of Procedural Due Process by the

27

order’s issuance in willful defiance of the burden of proof admittedly having not been met as to a

28

charge prosecuted, is, from its inception, “without legal effect” as “It binds no one and is not entitled

S

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 6 of 31

■1

2

to any respect ... no rights are acquired or divested by it, it neither binds nor bars anyone, and all
proceedings founded upon it are worthless... It is not necessary to take any steps to have a void

3 judgment reversed or vacated. A court has an inherent power to vacate a void judgment... anywhere
4

directly or collaterally... it is simply a nullity, and can be neither a basis nor evidence of any right

5

whatever... open to attack or impeachment in any proceeding, direct or collateral, and at any time

6

... cannot be cured by subsequent proceedings... void ab initio, void for all time”, American

7

Jurisprudence 2d, Volume 46, Judgments, Section 25 - 26, pages 424 - 427. Void orders “... form

8

no bar to a recovery sought, even prior to a reversal in opposition to them. They constitute no

9

justification, and all persons concerned in executing such judgments or sentences are considered

10

in law as trespassers”, ELLIOT vs. PIERSOL 26 U. S. 328 (1828) (“ELLIOT5), at page 340. A

11

court order which seeks to give effect to a void order is itself null and void, as a void order “is not

12

entitled to full faith and credit... Moreover, due process requires that no other jurisdiction shall

13

give effect, even as a matter of comity, to a judgment elsewhere acquired without due process...

14

it cannot be made the instrument for enforcing elsewhere...”, GRIFFIN vs. GRIFFIN 327 U. S. 220

15

(1946) (“GRIFFIN”), at pages 228 - 232. Void orders are “subject to collateral attack”, KATE vs.

16

FEUERSTEIN 3 08 U. S.433 (1940) (“KALB”), at page 438. The imposition of an order which is

17

void as having been procured by a deprivation of due process “... is judicial usurpation and

18

oppression, and never can be upheld...”, OLD WAYNE MUTUAL T.TFF. ASS’N vs.

19

MCDONOUGH 204 U. S. 8 (1907) (“WAYNE”), at page 17.

20

16. The law concerning extrinsic fraud being imposed upon the institution of the court recognizes

21

such imposition as constituting the evil oftampering with the administration ofjustice, and it occurs

22

when a falsehood designed to corruptly influence the truth-seeking adjudicatory operation of the

23

Court results in a contrived disposition, defiling the institution of the Court, as so held by the

24

HAZEL case.

25

17. The consequence of extrinsic fraud being imposed upon the institution of the Court,

26

particularly with participation by the Court’s judicial officers by their conducting “the pretense”

27

of a fair hearing, renders the contrived disposition of the affected case null and void as it has been

28

procured by virtue of the deprivation of Procedural Due Process, MOONEY vs. HOLOHAN 294

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 7 of 31

1

U. S. 103, at page 112 (1935) (“MOONEY”), and it obligates courts “to accord all the relief

2

necessary to correct the particular injustices involved” as a matter of Equity jurisdiction, HAZEL

3

at pages 248 - 249.

4

VI. THE FACTS

5

18. I, Martin Reiner, was sworn in as an attorney licensed in the State of California in 1989.

6

Yearn later, as an attorney, in the course of litigating a civil state administrative agency matter in

7

California for a client, Pelican Products, Inc., who was the Defendant in that matter, I discovered

8

that there exists within that state administrative agency, the California Worker’s Compensation

9

Appeals Board (“WCAB”), a criminal conspiracy involving attorneys and state government

10

administrative agency officials who are operating a scheme of insurance fraud and related crimes.

11

Specifically, the attorneys for my client’s litigation opponent, Ms. Rosa Palafox, openly admitted

12

that they had fabricated some of the allegations made in their client’s claim, to embellish that claim

13

and that they had forged their client’s signature on the pleadings, in violation of California Penal

14

Code Sections 115 and 550, and California Insurance Code Section 1871.4. The insurance claims

15

administrator for Pelican Products, Inc., Crum & Forster, presented the initial evidence of that

16

criminal malfeasance to the Los Angeles District Attorney’s office. The Los Angeles District

17

Attorney’s office issued a letter, dated January 22,2009, confirming the indication of the criminal

18

malfeasance, a true and correct copy of which is attached hereto as Exhibit 1.

19

19. When I properly filed with the WCAB a petition on behalf of my client for allowing discovery

20

pursuant to the crime-fraud exception to the attorney-client privilege, and for restitution for all of

21

the defense expenses that my client had incurred, I was then told by the WCAB judge assigned to

22

the case that because one ofthe attorneys involved in the criminal malfeasance, specifically Thomas

23

Redmond (“Redmond”), was a retired judge of the WCAB, the WCAB administrative officials

24

were going to aid and abet the involved insurance fraud to shield their former colleague, Redmond,

25

as well as the other attorneys involved, from penal exposure by covering-up the criminal

26

malfeasance by imposing monetary sanction orders against me, unless I capitulated to abandon my

27

client’s interest by withdrawing my client’s petition. I was told by the assigned WCAB judge that

28

he and the WCAB administrative officials, specifically the top administrator of the WCAB at the

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 8 of 31

1

time, Ms. Ronnie Caplane (“Caplane”), would so act against me as a part of a wider network of

2

judicial officers who regularly engage in subverting justice to protect each other by holding each

3

other above the law when any of them encountered scrapes with the law. I refused to abandon my

4

client’s interest on the grounds that the judge’s demand was unconstitutional, as a matter of the

5

federal Constitution. That judge told me that the federal Constitution was meaningless, that it has

6

become displaced by the strength of political connections. I refused to abandon my client’s interest

7

as had been demanded, and the threatened monetary sanctions were imposed against me, as well as

8

monetary sanctions imposed against my client’s insurance claim administrator, each in the

9

thousands of dollars. The sanction orders were contrived to make it appear as though there had

10

been no criminal malfeasance of insurance fraud and that my client’s petition had no basis in fact.

11

I did not want to pay the sanction orders because doing so would have been an unethical

12

abandonment of my client’s legal interest, and a severe betrayal of my oath to uphold and protect

13

the integrity ofthe federal constitution, as paying the sanction orders would provide those involved

14

in the insurance fraud with a false, make-believe, acknowledgment of there having been no

15

insurance fraud committed, when in fact the criminal malfeasance of insurance fraud was being

16

committed. I duly challenged the constitutional validity of the imposed sanction orders to the

17

California Supreme Court by writ petitions, which were summarily denied without any hearing.

18

I continued to not pay the sanction orders while I then challenged the constitutional validity of the

19

monetary sanction orders in federal court (with that challenge still remaining to be adjudicated), as

20

California does not follow the “collateral bar” rule, and allows challenges to be made and for

21

jurisdictional contentions to be raised in proceedings in which punishment for non-obedience is

22

sought PEOPLE vs. GONZALEZ (1996) 12 Cal. 4th 808, at 818-819 (“GONZALEZ”).

23

20. While in the course of my challenging the constitutional validity ofthe WCAB administrative

24

agency monetary sanction orders, the CSBAR, as the Plaintiff, rushed forward to file a civil

25

litigation case against me for the imposition of professional discipline, specifically for the

26

suspension of my law license for my supposedly having “willfully” not obeyed the WCAB

27

administrative agency sanction orders by virtue of my exercising my federal constitutional right to

28

legally challenge the constitutional validity of the orders. The law in California governing the

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 9 of 31

authority for imposing professional discipline upon an attorney for the charge of “willful”
2

disobedience of court orders requires proof, by clear and convincing evidence, that (l)the subject

3

orders werefinal - that the orders were not in the process of being challenged, nor capable of being

4

challenged, (2)the subject orders were binding - that the orders were constitutionally valid, and

5

(3)the attorney being charged with willful disobedience knew that the subject orders werefinal and

6

binding, IN THE MATTER OF MALONEY AND VIRSIK (Rev. Dept. 2005) 4 Cal. State Bar

7

Ct Rptr. 774,787 (“MALONEY”). I duly filed an Answer to the CSBAR’s complaint, denying

8

liability on the grounds that (l)given my court challenge to the constitutional validity of the

9

sanction orders, the sanction orders were not final orders, and (2)that the sanction orders were not

10

binding orders due to their infirmity under the federal constitution. I so answered the CSBAR’s

11

charge made against me pursuant to (l)CANATELLA vs. STOVITZ 365 F. Supp. 2d 1064 (N. D.

12

Cal. 2005) (“CANATELLA”), which holds at pages 1073 -1074 - “... attorneys may be disciplined

13

for violating only court orders that an attorney ‘ought in goodfaith’ to comply with... This

14

provision ensures that attorneys will not be disciplined for failing to comply with an unjust court

15

order. This provision... allows for an attorney to exercise his or her right to disobey a court order

16

the attorney believes to be unconstitutional” (emphasis added), and (2)IN THE MATTER OF

17

RESPONDENT X (Rev. Dept 1997) 3 Cal. State Bar Ct. Rptr. 592 (“RESPX”), whichholds at page

18

604, in footnote 23: “Of course, the invalidity of the underlying order is always a defense ...”

19

21. A trial before the CSBAR trial court was then conducted. The trial judge was Patrice

20

McElroy (“McElroy”), and the attorney representing the CSBAR was Michael Glass (“Glass”).

21

Attached as Exhibit 2 is a true and correct copy of the relevant pages from that CSBAR trial

22

transcript, which include pages 54 through 56, page 62, page 69, and pages 71 through 72. The

23

evidence, as established by my uncontroverted and unimpeached testimony (I was the only witness

24

that testified as to the elements comprising the burden of proof), proved: (l)at page 54, line 20

25

through page 56, line 13, and page 62, line 1 through line 22, that my mindset was that by virtue

26

of my existing legal challenge in federal court to the WCAB administrative agency monetary

27

sanction orders’ constitutional validity, the orders were not “final”, as they were subject to being

28

invalidated, (2)at page 69, line 3 through 23, that the trial judge McElroy acknowledged my

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 10 of 31

1

mindset that the sanction orders were not “final”, and, (3)at page 71, line 14 through page 72, line

2

13, that McElroy acknowledged that I was in the proper exercise of my federal constitutional right

3

to so challenge the WCAB administrative agency monetary sanction orders. In addition to the

4

evidence proving that the WCAB administrative agency monetary sanction orders were indeed not

5

“final”, and that my mindset was that those sanction orders were not “final”, thereby precluding the

6

required burden of proof from being met, and precluding the charge upon which the entire

7

prosecution was based - of “willful” disobedience - from ever being established, there was also

8

a failure by the CSBAR to meet the other required burden of proof element - that the subj ect WCAB

9

orders were “binding” - as the CSBAR never addressed whether or not those WCAB orders were

10

constitutionally valid. The only evidence as to that element of the required burden of proofwas my

11

uncontroverted and unimpeached trial testimony, at page 69, lines 19 through 23, stating that the

12

subject WCAB orders were not constitutionally valid, which further precluded the required burden

13

of proof from being met, precluding the ability of the CSBAR from being able to lawfully impose

14

any professional discipline upon me. Consequently, none of the elements of the required burden of

15

proof were ever proven. The trial judge, McElroy, took the matter under submission.

16

22. Consequently, the only disposition that the trial judge McElroy was authorized to issue in

17

conformity with Procedural Due Process, the JACKSON case, and the Rule of Law, as a result of

18

that uncontraverted, unimpeached testimonial evidence precluding the elements of the required

19

burden of proof from being met was to either (l)dismiss the case, without prejudice, to see if the

20

WCAB administrative agency sanction orders would be deemed constitutionally infirm (thereby

21

rendering the professional disciplinary proceeding moot), and if, upon the exhaustion of that

22

challenge, the sanctions orders were found to be constitutional, if I then did pay the sanction orders

23

(thereby rendering the professional disciplinary proceeding moot), or did not pay the sanction

24

orders (which would then justify the Court to re-institute the professional disciplinary proceeding),

25

or (2)simply abate the professional discipline proceeding until the federal constitutional challenge

26

of the sanction orders was exhausted, to see if the professional disciplinary proceeding was

27

rendered moot or required re-institution. Instead of McElroy rendering either such required

28

disposition consistent with Procedural Due Process, the JACKSON case, and the Rule of Law,

10

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 11 of 31

1

McElroy, at the urging, and joint participation, of my litigation opponent, the CSBAR, in the

2

wrongful protection of Caplane and the attorneys involved in the exposed WCAB insurance fraud,

3

so as to help further the cover-up of that exposed WCAB insurance fraud, in tyrannical disregard

4

of the JACKSON case, contrived a disposition to falsely discredit me professionally by McElroy’s

5

imposition of extrinsic fraud upon me, and upon the institution of die Court, in deprivation of my

6

federal constitutional right of Procedural Due Process, rendered her disposition on the falsehood

7

that the required burden of proof had been met, when it had not been met at all. Upon that

8

falsehood, McElroy’s disposition recommended to the California Supreme Court that my law

9

license be suspended for at least six months, and that as a condition for reinstatement, I pay the

10

WCAB administrative agency monetary sanction orders forthwith in betrayal of my client’s rights,

11

thereby forcing me to aid and abet the cover-up of the underlying insurance fraud, for me to

12

participate in playing make-believe that the WCAB insurance fraud never existed. I then duly filed

13

an appeal with that Court’s Review Department, and the CSBAR opposed that appeal.

14

23. In that appeal, the Review Department judges issued a written opinion. On page 6 of that

15

written opinion, in the bottom paragraph of that page, those judges acknowledged the burden of

16

proof that the Court bore, and had to meet, in order for the Court trial judge, McElroy, to be able

17

to make any recommendation for professional discipline, with those judges citing the MALONEY

18

case and its burden of proof, just as I stated that burden of proof in paragraph 20, above. A true and

19

correct copy of that page 6 of the Review Department judges’ written opinion is attached hereto as

20

Exhibit 3, along with a true and correct copy of that written opinion’s page 10. On that page 10 of

21

that same written opinion, those same Review Department judges admitted that during the course

22

of the subject trial, the required burden of proof was not met, as the element of proving the

23

constitutional validity of the sanction orders - that they were binding - was never even addressed

24

(the only evidence as to that element of the required burden of proof was my uncontroverted,

25

unimpeached testimony that the WCAB sanction orders were constitutionally invalid). On that page

26

10, the Review Department judges made the admission that “... the hearing judge did not determine

27

the constitutionality of the orders ...”, at lines 7 - 8 of that page 10. To act in conformity with the

28

JACKSON case, as a matter of the federal constitutional right of Procedural Due Process and its

II

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 12 of 31

1

component part of having a meaningful opportunity to be heard, the Review Department judges

2

were required to immediately dismiss the proceeding because the admitted fact that the evidence

3

of an element necessary to be able to prove the charge of “willful disobedience” - proof that the

4

sanction orders were constitutionally valid and thus “binding” - was absent from the record was an

5

indisputable demonstration of the failure to have met the required burden of proof. Instead, those

6

judges, in betrayal of their sworn duty to uphold the federal Constitution and in obstruction of its

7

promised delivery of the right of Procedural Due Process, then imposed a further act of extrinsic

8

fraud upon me, and upon the institution of the Court, as a further assault on the Constitution,

9

Procedural Due Process, the JACKSON case, and the Rule of Law, by their then imposing the

10

further falsehood of extrinsic fraud that the trial judge, and themselves on appeal, had authority to

11

disregard the failure to have met each of the elements of the required burden of proof, that they had

12

the authority to disregard Procedural Due Process, the JACKSON case, and the Rule of Law, to issue

13

a recommendation to the California Supreme Court, which the California Supreme Court,

14

procedurally, gives a presumption of validity, for the unwarranted imposition of professional

15

discipline upon me purely as a matter of judicial tyranny by their false assertion -

16

judge did not determine the constitutionality of the orders, she simply recommended discipline for

17

Reiner’s failure to obey them, as she is authorized to do” (emphasis added) at lines 8 - 9 on that

18

page 10. No judicial officer anywhere in the United States of America is ever “authorized” to

19

impose any conviction of a charge upon the failure to meet the burden of proof. There is no such

20

authority whatsoever for a judicial officer to “simply” impose a disposition in defiance of the

21

evidentiary proof, and there is no judicial discretion whatsoever to even consider such authority

22

existing. Any conviction so contrived by such a disposition bom of such tyranny is always

23

forbidden as a violation and deprivation ofProcedural Due Process and its component part ofhaving

24

a meaningful opportunity to be heard, as the JACKSON case holds. Furthermore, that established

25

and governing constitutional law, as held by the JACKSON case, can never be at all diminished or

26

otherwise changed, let alone abandoned completely, because to otherwise allow whimsical laxity

27

in the demands of evidentiary proof would be more than just an infringement on fundamental

28

fairness, it would be the destruction of fundamental fairness entirely, as, per se, a grave injustice,

I'Z*

the hearing

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 13 of 31

1

as the delivery of all the aspects of Procedural Due Process is the sine qua non for the delivery of

2

fundamental fairness. Justice can only be obtained by virtue of the provision of fundamental

3

fairness in jurisprudence by full delivery of Procedural Due Process, and each of its component

4

parts, and that delivery is promised by our federal Constitution to each member of our society,

5

including me. The requirements of the JACKSON case ensuring every litigant a meaningful

6

opportunity to be heard in the dispute resolution process is our society’s guarantee that our system

7

ofjurisprudence will deliver justice through the fundamental fairness of Procedural Due Process,

8

and not injustice through whimsical tyranny, by requiring in each and every case that every element

9

of the required burden of proof has to be met. By virtue of those judicial officers’ self-defilement

10

by their imposition of that extrinsic fiaud upon me, and upon the institution of the Court, in utter

11

defiance of the JACKSON case, their “order” recommending that I be subject to professional

12

discipline in defiance ofthe failure to have met the required burden ofproof, and every other “order”

13

premised thereupon, is each null and void, and permanently so, as held by the ELLIOT, GRIFFIN,

14

KALB, WAYNE, and UNITED cases.

15

24.1 then duly filed a petition to the California Supreme Court in opposition to the null and void

16

disposition contrived by McElroy and the Review Department judges. The CSBAR, as my litigation

17

opponent, in further violation of 42 USC 1983, as recognized by the DENNIS case, further

18

affirmatively engaged in joint participation with McElroy and the Review Department judges in

19

subjecting me to the wrongful deprivation of my federal constitutional right of Procedural Due

20

Process by urging the California Supreme Court to ratify the wrongful deprivation of my federal

21

constitutional right of Procedural Due Process and to wrongfully impose the contrived

22

recommendation of the unwarranted professional discipline of the suspension of my license.

23

Instead of providing me with the federal constitutional right of Procedural Due Process, the

24

California Supreme Court, in further tyrannical defiance of the JACKSON case, to now cover-up

25

for the criminal and civil malfeasance of Redmond, Caplane, McElroy, Glass, the CSBAR, and the

26

Review Department judges (of the underlying insurance fraud and the compiled violations of

27

federal law -18 USC 241,18 USC 242,18 USC 1512, and 42 USC 1983), ratified the

28

null and void disposition contrived by McElroy and the CSBAR by issuing, on September

13

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 14 of 31

1

10,2014, a further null and void “order” (as being null and void pursuant to the JACKSON,

2

ELLIOT, GRIFFIN, KALB, WAYNE, and UNITED cases) purportedly suspending my law license

3

effective October 10,2014, and allowing me to have my license reinstated on the condition that

4

I make the false, make-believe, imaginary acknowledgment that the existing criminal malfeasance

5

of insurance fraud supposedly never existed by paying the WCAB administrative agency sanction

6

orders.

7

25. At that time, I did not know the extensive disqualifying personal relationships that existed

8

between Caplane (who was the appointed administrative head of the WCAB, as well as the one

9

directing the effort to cover-up the exposed insurance fraud), on the one-hand, and the CSBAR

10

judges and California Supreme Court Justice Carol Corrigan on the other hand. Caplane is the

11

widow of a deceased attorney named Joseph Remcho (“Remcho”). Remcho was the most powerful

12

political attorney in the State of California. As an a attorney, Remcho served the Democratic Party

13

and State government agencies, including representation for many years of the CSBAR and its

14

judges, and had been considered for appointment as a justice of the California Supreme Court.

15

When Remcho deceased, the present and past Governors of the State of California and many

16

politicians attended, with the eulogy given by Remcho’s former client, the former Speaker of the

17

California State Assembly and former Mayor of San Francisco, Willie Brown. After Remcho

18

deceased, Caplane, who had no substantial experience, if any, in WCAB matters, was appointed by

19

the Governor of California to the administration of WCAB. Through Remcho’s law firm, which

20

Caplane is indicated as having been involved, and that firm’s service to the CSBAR and its judges,

21

Caplane developed disqualifying personal relationships with the judges of the CSBAR. None of

22

those disqualifying relationships and their corrupting undue influence were at all disclosed, and

23

each, as a matter of California law, California Code of Civil Procedure Section 170.1(a)(6)(iii),

24

and federal law, as an issue concerning federal constitutional right of Procedural Due Process,

25

were required to have been fully disclosed in lieu of self-recusal by the involved judges, each of

26

whom was impermissibly conflicted, IN RE MURCHISON 349 U. S. 133 (1955)

27

(“MURCHISON”) at page 136 - “Fairness, of course, requires an absence of actual bias... But our

28

system of law has always endeavored to prevent even the probability of unfairness”, LELJEBERG

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 15 of 31

1

vs. HEALTH SVCS ACO. CORP. 486 U. S. 847 (1988) (“LIUEBERG”) at page 868, holding that

2

a failure to make full disclosure of grounds for disqualification subjects the judicial officers’

3

dispositions to being vacated, because the right of each litigant to have full disclosure made

4

regarding the grounds for a judicial officer’s disqualification is a required component of the federal

5

constitutional 14th Amendment right of Procedural Due Process, BRACY vs. GRAMLEY 520

6

U. S. 899 (1997) (“BRACY”). The California Supreme Court was also tainted by the corrupting

7

undue influence of an undisclosed disqualifying relationship. During the time that I petitioned the

8

California Supreme Court in opposition to the CSBAR urging the California Supreme Court to

9

adopt the null and void recommendation for the suspension of my law license, California Supreme

10

Court Justice Carol Corrigan (“Corrigan”), who knew Caplane for some 40 years or more (they

11

attended law school together), and who was fully aware, by virtue of my petition to the California

12

Supreme Court and its incorporated documents that Caplane was directly involved in the effort

13

to cover-up the subject insurance fraud, nevertheless publicly committed herselfto bestowing honor

14

upon Caplane by presenting Caplane, at a San Francisco Bar Association dinner, an award. No one

15

ever made the required disclosure of Caplane’s disqualifying relationship with Corrigan, and the

16

corrupting undue influence that disqualifying relationship posed, which is another deprivation of

17

Procedural Due Process altogether.

18

26. Still insistent upon having me participate in covering-up the insurance fraud, to now shield

19

all the participants in the increasing malfeasance from their properly being subjected to penal

20

liability by professionally discrediting me, the CSBAR threatened me with disbarment unless I

21

immediately complied with the null and void suspension “order”. By my commitment to uphold

22

the Constitution and in obedience to the Rule of Law, I properly refused the CSBAR’s unlawful

23

coercion to try to force me to comply with the null and void “order”. In response, the CSBAR, as

24

my litigant opponent, commenced a proceeding to have me disbarred. I duly answered the charge

25

for disbarment on the grounds that the subject suspension “order” was, and always will be, null

26

and void, as it was premised on the admitted failure to meet the burden of proof. In the disbarment

27

proceeding, with my newly acquired knowledge, courtesy solely of my own research, of the

28 disqualifying relationships existing between the involved judicial officers and Caplane, I duly

IS

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 16 of 31

1

petitioned for disclosure of the disqualifying relationships to be made, as I have a legal right to that

2

information, and the involved judicial officers have the corresponding legal duty to make full

3

disclosure of those relationships and the undue influence thereby imposed. The involved judicial
officers wrongfully denied me that right by their September 1,2016 order denying disclosure. The

5

judges did not say there was nothing to disclose, they simply denied my legal right to have

6

disclosure, at all, in complete evasion of their legal duty to make full disclosure. I then petitioned

7

the California Supreme Court for an order requiring the involved judicial officers to make full

8

disclosure, and on October 12,2016, that petition was wrongfully denied. A true and correct copy

9

of each of those two denials is attached hereto as Exhibit 4. I continued to defend myself on the

10

grounds that I was exonerated by the suspension proceeding’s failure to meet the required burden

11

of proof. The trial judge for the disbarment proceeding was again McElroy. In tyrannical defiance

12

of (l)the JACKSON case and the other federal case law that provides that one cannot be deprived

13

oftheir law license premised upon a charge wherein there was a failure to meet the burden of proof,

14

DROSSOS vs.UNITED STATES 2 F. 2d 538 (8th Cir. 1924) (“DROSSOS”), which, at page 529,

15

holds that “That the burden of proof to establish... every essential element... rests upon the

16

prosecution is elementary and needs no citation of authorities”, as “It was incumbent upon the

17

government to prove every essential fact necessary to constitute the offense”, UNITED STATES

18

vs,.KANTOR 78 F. 2d 710 (2nd Dist. 1935) (“KANTOR”), at page 711, and (2)the governing

19

federal law which unambiguously holds that “the requirements of procedural due process must be

20

met before a state can exclude a person from practicing law”, WTI.T.NRR vs. COMMITTEE ON

21

CHARACTER 373 U. S. 96, at 102 (1963) (“WILLNER”), that trial judge McElroy issued a null

22

and void recommendation to the California Supreme Court that I be disbarred. I appealed that to

23

the Court’s Review Department, and again, the Court’s Review Department judges ratified the null

24

and void recommendation of the trial judge. Attached hereto as Exhibit 5 is a true and correct copy

25

of page 4 of the Court’s Review Department judge’s written opinion wherein they acknowledged

26

(l)my contention, and (2)their continuing tyrannical defiance of the Rule of Law by their defiance

27

of the JACKSON, DROSSOS, KANTOR, WILLNER, ELLIOT, GRIFFIN, KALB, WAYNE and

28

UNITED cases.

i(>

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 17 of 31

1

27.1 duly petitioned the California Supreme Court in opposition to the null and void

2

recommendation for disbarment, and the justices of the California Supreme Court, en banc, and

3

premised on the null and void September 10,2014 suspension “order”, on March 22,2017, issued

4

a null and void “order” disbarring me from the practice of law. Prior to having my law license

5

subjected to the null and void suspension “order”, I had engaged in 25 years of an uninterrupted

6

lawful and ethical law practice entirely devoted to upholding the Constitution and the Rule of Law.

7

Conversely, the involved judicial officers, along with the CSBAR, in response to the luring

8

temptation for abuse of their authority, as provided by the absolute governmental authority, and

9

immunity, held by the involved judicial officers relative to the administration of justice, were

10

seduced by that temptation to unduly protect, and hold above the Rule of Law, persons with whom

11

they had disqualifying relationships, to subvert and obstruct justice, to cover-up the expanding

12

malfeasance so that they, and their indulged patrons, could all evade justice. The involved judicial

13

officers tampered with the administration of justice by imposing the extrinsic fraud upon me, and

14

upon the institution of the Court, in violation of the JACKSON case, by subjecting me, under color

15

of state law authority, to deprivation of my federal constitutional right of Procedural Due Process.

16

As to that wrongdoing, and the consequential harm it causes me to suffer, the CSBAR, as my

17

litigation opponent, as recognized by the DENNIS case, is liable to me by the CSBAR’s joint

18

participation with the state actor judicial officers in that wrongdoing, even though those judicial

19

officers enjoy immunity, because, at the least, the CSBAR failed to act in opposition to that

20

wrongdoing when the CSBAR was under a clear legal duty to have actively opposed that

21

wrongdoing, as that duty is imposed on the CSBAR by California Business and Professions Code

22

Section 6001.1.

23

28. As the null and void March 22,2017 disbarment “order” issued “en banc”, that necessarily

24

means that California Supreme Courtjustices Leondra Kruger (“Kruger”) and Goodwin Liu (“Liu”),

25

each of whom had been a law clerk at SCOTUS, with Liu having a very close and publicly-known

26

relationship with SCOTUS Associate Justice Ruth Bader Ginsburg (“Ginsburg”), participated in,

27

and have penal liability exposure for, the criminal malfeasance committed, specifically 18 USC 241

28

and 18 USC 242, by the issuance of that March 22,2017 null and void “order. The CSBAR, on

n

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 18 of 31

1

November 6,2017, thinking that no effort had been made, nor could then have been made, for

2

SCOTUS to review the subject, complained-of malfeasance, then ratified all of that malfeasance

3

by issuing a letter addressed to me demanding that I pay to the CSBAR $22,275.75 its alleged costs

4

incurred from the CSBAR having subjected me to deprivation, under color of authority of state

5

law, of my federal constitutional right of Procedural Due Process. A true and correct copy of that

6

November 6,2017 letter from the CSBAR confirming the CSBAR’s ratification of the subject,

7

complained-of malfeasance is attached hereto as Exhibit 6.

8
9

29. From the subject, complained-of wrongdoing of the imposed extrinsic fraud which caused the
wrongful deprivation of my federal constitutional right of Procedural Due Process, and the

10

wrongful consequential deprivation of my professional livelihood, I suffered significant

11

consequential harm, which is more than just the intrinsic harm of the right itself being deprived.

12

I did properly seek the long-overdue delivery of my deprived federal constitutional right of

13

Procedural Sue Process, as well as for the redress and relief for the consequential harm suffered

14

from that right being so deprived, from SCOTUS, adverse to the CSBAR, pursuant to 42 USC 1983,

15

as well as pursuant to Equity and the HAZEL case. The redress and relief which I sought to recover

16

by the SCOTUS proceeding adverse to the CSBAR was (l)restoration of my law license, (2)having

17

the CSBAR correct its false on-line information about me, (3)the full recovery of the monthly loss

18

of professional earnings I was suffering from October 2014, through July 2018 (when I filed my

19

pleading for relief with SCOTUS) at my then monthly income earnings rate of $10,500.00, in the

20

amount of $483,000.00 as of July 2018, and (4)the value ofthe wrongful destruction of my 25-year

21

professional reputation of having an entirely ethical and lawful professional practice, which had

22

been built by a 25 year investment of blood, sweat, and tears, which is reasonably valued, if not

23

slightly undervalued, at $100,000.00 a year, or $2,500,000.00, for a total compensatory damage

24

amount of $2,983,000.00.1 also properly sought punitive damages against the CSBAR, because the

25

CSBAR, in addition to its active participation in having initiated the unwarranted professional

26

disciplinary proceedings against me, and having affirmatively advocated for imposition of the

27

subject, complained-of wrongdoing, also, through the decision-making process of its Board of

28

Trustees, willfully and intentionally decided to refuse to act in accordance with its legal duty to have

IS

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 19 of 31

1

acted in opposition to the subject, complained-of wrongdoing, as that duty to act is imposed on the

2

CSBAR by California Business and Professions Code Section 6001.1. The CSBAR purposefully

3

undertook to cause me to suffer the deprivation and its consequential harm in despicable, malicious,

4

fraudulent, and oppressive conscious disregard to my rights and welfare, to wrongfully discredit me

5

professionally to protect everyone involved in the underlying crime of insurance fraud, and its cover-

6

up, including Caplane, with whom the CSBAR had an undisclosed disqualifying relationship. That

7

conscious disregard of the CSBAR and its Board of Trustees is proven by. their knowledge of the

8

subject, complained-of wrongdoing as documented by their September 21,2015 Meeting Agenda,

9

which on page three of that document, on the top of that page, reflects that the CSBAR’s Board of

10

Trustees held a closed-door session regarding the “Claim of Martin Reiner”, with the decision

11

being made to defy the CSBAR’s clear duty under California Business and Professions Code

12

Section 6001.1. Had the CSBAR acted in accordance with California Business and Professions

13

Code Section 6001.1, the CSBAR, could have protected the public, including me, from (l)the

14

underlying insurance fraud and its defiling corruption of the WCAB, and (2)the defiling corruption

15

of jurisprudence by the criminal malfeasance being committed to cover-up the scandal at the

16

expense of my federal constitutional right. The CSBAR could have informed the California

17

Supreme Court that the September 10,2014 suspension “order”, and the March 22,2017 disbarment

18

“order”, were each null and void, pursuant to the JACKSON, UNITED, ELLIOT, GRIFFIN, KALB,

19

WAYNE, and WILLNER cases, due to being premised on the failure to have met the burden of

20

proofrequired for the imposition of any professional discipline, and that the CSBAR was incapable,

21

in accordance with the federal constitutional right pf Procedural Due Process, to either suspend or

22

disbar Martin Reiner from the practice of law. Instead, the CSBAR, through its Board of Trustees,

23

chose by a “meeting of the minds” to participate with state actors (l)McElroy, (2)the involved state

24

actor Review Department judges, and (3)the involved California Supreme Court justices, to impose

25

the subject, complained-of wrongdoing, as such participation by agreement is recognized by

26

ADICKES vs. S. H. KRESS & CO. 398 U. S. 144 (1970) (“ADICKES”) and the DENNIS case.

27

By so refusing to carry-out the CSBAR’s affirmative legal duty to have opposed that wrongdoing,

28

by that “meeting of the minds”, the CSBAR actually, proximately, foreseeably, willfully,

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 20 of 31

. intentionally and purposefully participated in causing me to be subjected, under color of authority
2

of state law, to the wrongful deprivation of the federal constitutional right of Procedural Due

3

Process, and the consequential harm which was suffered by me in addition to the loss of the

4

deprived constitutional right. A true and correct copy of that CSBAR Meeting Agenda is attached

5

hereto as Exhibit 7. Punitive damages were sought at a multiple rate of at least three times the

6-

amount ofthe compensatory damages, for an additional $8,949,000.00, for a total monetary recovery

7

against the CSBAR of $11,932,000.00. Unfortunately, for me, and for our society, the CSBAR

8

refused to take the required action. That makes the CSBAR fully liable to me.

9

30. To obtain redress and relief for my federal constitutional right of Procedural Due Process

10

being wrongfully deprived, and the consequential harm that is being suffered thereby, it became

11

necessary to seek redress and relief from SCOTUS, as no one can, nor should, be so deprived of •

12

one’s constitutional rights, including the federal constitutional right of Procedural Due Process, and

13

no conviction, including one for professional discipline, can be imposed upon the failure of the

14

required burden of proof having been met. However, as compelling for remedy as the deprivation

15

to which I am being subjected presents, that deprivation could have been viewed narrowly, and

16

incorrectly so, as being in the nature of purely an individual legal dilemma, rather than a national

17

legal issue. Consequently, the prospects for obtaining redress and relief from SCOTUS on the

18

basis of a petition for a writ of certiorari appeared uncertain, particularly in light of the fact that in

19

order to grant full redress and relief, the justices of SCOTUS would have to correctly find that two

20

of SCOTUS’ former law clerks, Liu and Kruger, were directly involved in the subject criminal, and

21

civil, malfeasance, one of whom, at least, Liu, appears to be beloved by one of the SCOTUS

22

justices, Ginsburg. So, rather than file a petition for a writ of certiorari, which could be subject to

23

the discretion of being denied as not constituting a national legal issue, I instead properly filed for

24

full redress and relief by a SCOTUS Rule 8 proceeding, from my being a member of the SCOTUS

25

Bar. SCOTUS Rule 8 requires the SCOTUS justices to review a state’s imposition ofprofessional

26

discipline upon an attorney who is a member of the SCOTUS Bar, and for the SCOTUS justices,

27

upon the issues raised, provide an “appropriate order”, which, as raised by my Rule 8 pleading,

28

required the SCOTUS justices to rule upon the issues raised regarding the null and void

•2Z)

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 21 of 31

1

status of the subject September 10,2014 suspension “order”, and the null and void status of the

2

subject March 22,2017 disbarment “order”, as raised pursuant to 42 USC 1983 and the HAZEL

3

case.

4

31. Instead of SCOTUS providing the due remedy for the subject, complained-of subversion and

5

obstruction of justice, the scandal of criminal malfeasance only got worse. My access to justice,

6

and of being provided the long-overdue redress and relief, was further wrongfully delayed by new

7

and further extrinsic fraud being imposed upon me, and upon the institution of the Court, by the

8

further tampering with the administration of justice, by subjecting me to a further deprivation of

9

my federal constitutional right of Procedural Due Process, as jointly caused in surreptitious

10

furtherance of the involved conspiracy, by operation the ADICKES “meeting of the minds”, by at

11

least some of the involved state actor judicial officers, the CSBAR, and at least Wood, Silver, and

12

the DOE Defendants, now in defilement of SCOTUS.

13

32. The first thing I did with regard to my SCOTUS Rule 8 pleading, which, included a cover

14

letter, the Brief, the Appendix of Exhibits, and a proposed Order, was to properly have all of that

15

served on the CSBAR. I also requested from the CSBAR that it cease from its wrongdoing and to

16

affirmatively petition the California Supreme Court to rectify itself. On July 24,2018, the CSBAR

17

responded that it received my Rule 8 pleading and that the CSBAR was refusing to undertake any

18

effort to have its wrongdoing rectified. The CSBAR was thereby aware of its opportunity to be heard

19

relative to my Rule pleading, and the CSBAR determined that it would be heard, but in a continued

20

under-handed, surreptitious, conspiratorial manner, in further criminal malfeasance with at least

21

Wood and Silver in protective cover-up of the involved state actor judicial officers. A true and

22

correct copy of that July 24, 2018 letter issued by the CSBAR is attached hereto as Exhibit 8. On

23

July 13,2018, SCOTUS received my Rule 8 pleading, and stamped it “Received”. The CSBAR,

24

having received it before SCOTUS, shared the dread of its civil liability exposure, and penal

25

liability exposures, with McElroy, the Review Department judges, the involved CSBAR attorneys,

26

and the California Supreme Court j ustices, including Liu and Kruger. Those state actors, and the

27

CSBAR, agreed by a further “meeting of the minds” to further subject me to deprivation of my

28

federal constitutional right ofProcedural Due Process, at least through the participation of SCOTUS

zi

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 22 of 31

1

clerks, Wood and Silver, to jointly participate in the new and further obstruction ofjustice by a new

2

and further wrongful deprivation of my federal constitutional right of Procedural Due Process by

3

the new and further imposition of extrinsic fraud upon me, and upon the institution of the Court,

4

this time in defiling SCOTUS, by the wrongful and brazen refusal to allow my proper Rule 8

5

pleading to be filed and assigned a case number. Wood, on behalf of all the other involved

6

wrongdoers, engaged in that imposition of the new and further extrinsic fraud by communicating

7

to me, in her August 16,2018 letter, the utter falsehood that I supposedly could not go forward with

8

a Rule 8 proceeding, hoping that I would accept that utter nonsense. A true and correct copy of

9

Wood’s August 16,2018 letter imposing that extrinsic fraud is attached hereto as Exhibit 9.

10

33.1 strenuously objected, pointing out the criminal nature of this obstruction ofjustice as a

11

further violation of 18 USC 241, 18 USC 242, and 18 USC 1512, and eventually Wood relented,

12

with my Rule 8 pleading belatedly receiving a SCOTUS case number in late October 2018, which

13

was SCOTUS case number 18D3030. In February 2019, while my SCOTUS case was pending, I

14

also properly had served on the CSBAR, and properly submitted for filing with SCOTUS, a

15

SCOTUS Rule 22 Motion, which, according to the SCOTUS allotment of appellate districts among

16

the SCOTUS justices, was supposed to be assigned to Kagan. Wood, and Silver, in joint

17

participation with the CSBAR and the involved state actors, and the DOE Defendants, executed a

18

new plan of action to obstruct my access to justice by further imposition of extrinsic fraud to

19

further deprive me of my federal constitutional right of Procedural Due Process. This new plan of

20

action involved Silver wrongfully and unjustifiably rejecting my proper Rule 22 Motion, returning

21

it to me in the mail, and then fraudulently falsifying the record to falsely reflect my February Rule

22

22 Motion as having been my Rule 8 pleading submission, to have the record then falsely reflect

23

that my Rule 8 pleading had been decided adverse to me, as ifthe SCOTUS justices had deliberated

24

on my Rule 8 pleading and that the SCOTUS justices, on March 4,2019, decided to issue and

25

“order” supposedly disbarring me from the SCOTUS Bar by premising that March 4, 2019 “order”

26

on the null and void September 10,2014 suspension “order”, and the equally null and void March

27

22,2017 disbarment “order”, which according to the Rule of Law of the JACKSON, UNITED,

28

ELLIOT, GRIFFIN, KALB, WAYNE, and WILLNER cases makes the purported March 4,2019

~ZJ2—

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 23 of 31

1

SCOTUS “disposition” in SCOTUS case number 18D3030 entirely null and void. Attached hereto

2

as Exhibit 10 is a true and correct copy of Silver’s February 15,2019 letter wrongfully and

3

unjustifiably obstructing the filing of my proper Rule 22 Motion. Attached hereto as Exhibit 11, a

4

true and correct copy of the purported March 4,2019 SCOTUS disbarment disposition (which in

5

any event is null and void), which was signed not by any SCOTUS justice, but instead just Wood.

6

Attached hereto as Exhibit 12 is a true and correct copy of the SCOTUS on-line docket, showing

7

the clumsily fabricated deception of extrinsic fraud which falsely misrepresents my Rule 22 Motion

8

as supposedly being the material which supposedly was being deliberated upon - the February

9

11,2019 “Response Filed” - which is an impossibility, as Silver obstructed that Rule 22 Motion’s

10

filing and had sent it back to me in the mail on February 15,2019, thereby also making the purported

11

March 1,2019 “Response Conference” a fabrication. This extrinsic fraud was imposed by Wood,

12

and by Silver, in joint participation with, and at the direction of, the CSBAR and the crooked

13

involved state actors, as well as other, yet-to-be-identified, participating wrongdoers, in defilement

14

of SCOTUS, as a further matter of criminal malfeasance in violation of 18 USC 241,18 USC 242,

15

and 18 USC 1512, as well as a further matter of wrongful deprivation, under color of state law

16

authority by the involved state actors, of my federal constitutional right of Procedural Due Process,

17

in further violation of 42 USC 1983, to subvert the administration ofjustice so to enable the

18

involved wrongdoers to evade justice.

19

34.1 called SCOTUS and asked the Clerk’s office to identify the justices that were involved in

20

the March 4,2019 “disposition” that Wood had issued. I was told that everything surrounding

21

SCOTUS case number 18D3030 is a secret, and is being kept as a secret as requested by the

22

CSBAR and others, and that no one is allowed to know anything about it I respectfully requested

23

that my intelligence not be insulted, but again, I was told the rendering of the March 4,2019

24

“disposition” in SCOTUS case number 18D3030 was, and always will remain, a complete secret.

25

I then had served on the CSBAR, and mailed to SCOTUS for filing, a proper Petition in Equity,

26

pursuant to the HAZEL case, which has to be allowed to be filed, as required by the HAZEL case,

27

so that file justices can address the issue being raised as to Equity jurisdiction being warrranted.

28

Wood, by further obstruction ofjustice, refused to allow that proper Petition to be filed, and mailed

”Z-3>

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 24 of 31

1

back to me with Wood’s April 22,2019 letter. A true and correct copy of Wood’s April 22,2019

2

letter is attached hereto as Exhibit 13. Consequently, the subject SCOTUS Rule 8 proceeding has

3

yet to be actually concluded, because no “appropriate order” has issued in that proceeding, as the

4

only appropriate order that can issue in that proceeding is one which grants my long overdue

5

request for redress and relief in full, and which grants it immediately.

6

35. That new and further extrinsic fraud imposed in defilement of SCOTUS, and the corresponding

7

further subjecting me to that new and further deprivation of my federal constitutional right of

8

Procedural Due Process that so occurred in the District of Columbia, at SCOTUS, on March 4,

9

2019, caused me to suffer new and further items of consequential harm, which are in addition to

10

the mere deprivation of the subject federal right that occurred at SCOTUS, and which are in

11

addition to the initial consequential harm that is identified in paragraph 29 above. The new and

12

further items of consequential harm, in the form of compensatory damages, are actually,

13

proximately, and foreseeably caused by the new and further extrinsic fraud imposed upon my

14

SCOTUS Rule 8 proceeding by the CSBAR, among others, which is subjecting me to a new and

15

further deprivation of my federal constitutional right of Procedural Due Process in violation of 42

16

Section 1983, are (l)extreme and enduring emotional anguish in the form of anger, anxiety,

17

frustration, physically painful headaches, and sleep disturbance, which consumes about 15 hours a

18

day of my precious time on earth, the reasonable value of which is $300.00 and hour, based upon

19

the hourly rate at which I was professionally paid just prior to the imposition of the null and void

20

September 10,2014 suspension “order”, which I have been suffering, and continue to suffer daily,

21

since March 5,2019, (2)the out-of-pocket cost of over-the-counter aspirin-like medicine that I have

22

had to purchase to take for the headaches, which since March 5,2019 is about $18.00, and (3)the

23

continuation of my loss of professional earnings, the realization for the recovery of which has been

24 . delayed, running from August 2018 to the present and continuing at $10,500.00 a month.
25

36. The wrongdoing which caused the initial consequential damages identified in paragraph 29

26

above, for the full recovery of which was sought by my Rule 8 SCOTUS proceeding, as well as the

27

new and further consequential damages, as identified in paragraph 35 above, were committed by

28

the despicably oppressive, malicious, and fraudulent conscious disregard of my rights and welfare.

•2.4

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 25 of 31

1

With regard to the compensatory damages identified in Paragraph 35 above, which were inflicted

2

by the Defendants’ defilement of SCOTUS, I respectfully request that punitive damages also be

3

awarded, and at nine times the amount of the paragraph 35 compensatory damages. That the

4

CSBAR jointly participated at least passively, if not actively, in my being subjected to the further

5

deprivation of my federal constitutional right of Procedural Due Process by the further imposition

6

of extrinsic fraud within my SCOTUS Rule 8 proceeding, in the defilement of SCOTUS, by the

7

CSBAR not acting, when, again, the CSBAR was under a clear duty to act pursuant to California

8

Business and Professions Code Section 6001.1 to have protested that further wrongdoing, is proven

9

by that failure to have so acted, as well as by the ratifying approval the CSBAR gave to the

10

commission of that wrongdoing by the July 18,2019 demand for payment letter that the CSBAR

11

had the California Franchise Tax Board issue to me, making good on the CSBAR’s threat that was

12

pending from the CSBAR’s earlier November 6,2017 letter to me (Exhibit 6). A true and correct

13

copy of the July 18,2019 letter, reflecting the CSBAR’s ratifying approval of my being subjected

14

to the further deprivation of my federal constitutional right of Procedural Due Process within my

15

SCOTUS Rule 8 proceeding is attached hereto as Exhibit 14.

16

VTT. THE FIRST CLAIM - FOR EQUITABLE RELIEF PURSUANT TO THE HAZEL CASE

17
18

37. Paragraphs 1 through 36, inclusive, are incorporated herein by reference as though fully set
forth here at.

19

38. This lawsuit’s First Claim is made pursuant to the HAZEL and KELLER cases for equitable

20

redress and relief adverse to (l)the CSBAR, (2)Roberts, (3)Kagan, (4)Wood, and (5)Silver, for the

21

subject, complained-of wrongdoing of extrinsic fraud being imposed upon me and upon the

22

institution of the Court which subjected me, under color of authority of state law, to deprivation of

23

my federal constitutional right of Procedural Due Process, from its initiation through it commission

24

in SCOTUS case number 18D3030. I have the right to so obtain full redress and relief by such

25

collateral attack in this independent action in Equity because the March 4,2019 letter from Wood

26

purportedly disbarring me as a member of the SCOTUS Bar is null and void as a grave injustice, as

27

held hv T INITF.D STATES vs. BEGGERLY 524 U. S. 38, at page 47 (1998) (“BEGGERLY”). The

28

issuance of that March 4,2019 letter from Wood, and the scheme of criminal malfeasance in

15

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 26 of 31

1

violation of 18USC 241,18 USC 242, and 18 USC 1512 which generated its issuance, is an

2

obstruction of my righteous effort to have the long-overdue delivery of my federal constitutional

3

right of Procedural Due Process be provided from SCOTUS by my SCOTUS Rule 8 pleading - to

4

rightly obtain relief from the unwarranted professional discipline of suspension and disbarment

5

which had been wrongfully imposed by the California Supreme Court. That March 4,2019 letter

6

from Wood is, according to the JACKSON, ELLIOT, GRIFFIN, KALB, WAYNE, UNITED, and

7

WILLNER cases, null and void, as a grave injustice, because that March 4,2019 letter from Wood

8

is also premised upon the tyrannical defiance ofthe admitted failure to have met the burden of proof

9

required to justify the imposition of any professional discipline. Even if, assuming arguendo, all

10

nine SCOTUS justices, had instructed Wood to have issued that March 4,2019 letter after all nine

11

justices had read my Rule 8 Brief and the Appendix of Exhibits and sincerely considered and

12

discussed the evidence, and voted in SCOTUS case number 18D3030 for an order to issue disbarring

13

me premised upon the subject California Supreme Court suspension “order” and disbarment “order”

14

(Heaven help the United States of America if all of the SCOTUS justices were to be of such

15

profound want of competence as to be unable to discern a null and void “order” as being null and

16

void, and of attempting to issue an order premised on such clearly null and void orders), the

17

governing law, the JACKSON, ELLIOT, GRIFFIN, KALB, WAYNE, UNITED, and WILLNER

18

cases, still makes that March 4,2019 decision to so disbar me null and void, and to always be null

19

and void, because the orders upon which it is premised are each themselves null and void by their

20

foundational infirmity of having come into existence through the intentional deprivation of my

21

federal constitutional right of Procedural Due Process by the imposition of the extrinsic fraud that

22

judicial officers have authority to impose a conviction in defiance of the failure to meet the required

23

burden of proof, when in fact no judicial officer in the United States of America has any such

24

authority to so replace the Rule of Law with whimsical tyranny. By that null and void March 4,

25

2019 letter issued by Wood, SCOTUS case number 18D3030 still, to this day and continuing, is an

26

open and pending case in need of its required Rule 8 disposition of an “appropriate order .

27

39. Regarding the CSBAR, this lawsuit’s First Claim for Equity respectfully requests the remedy

28

of a court order to issue adverse to the CSBAR which (l)declares the subject, complained-of null

~lL>

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 27 of 31

1

and void September 10,2014 suspension “order”, the null and void March 22,2017 disbarment

2

“order”, and every other “order” premised thereupon, including the SCOTUS suspension and

3

disbarment orders falsely issued in SCOTUS case number 18D3030 to be null and void, (2)orders

4

the CSBAR to pay to me the compensatory damage amount of $2,983,000.00, forthwith, (3)orders

5

the CSBAR to pay to me the punitive damage amount of $8,949,000.00 forthwith, (4)orders the

6

CSBAR to restore my California law license to active status, and (5)orders the CSBAR to rectify

7

its on-line site description of my California law license to reflect it as being in active status, and in

8

good standing, with the professional discipline that was reported on that cite as having been

9

wrongfully imposed by the extrinsic fraud of the CSBAR, as I had sought this remedy by my

10
11

SCOTUS Rule 8 pleading.
40. Assuming that Roberts has not at all participated in, and has been unaware of, the subject,

12

complained-of wrongdoing that has occurred at SCOTUS Roberts can render the First Claim

13

of this United States District Court lawsuit moot by Roberts issuing an order in SCOTUS case

14

number 18D3030 which fully provides the remedy of each of the five items of redress and relief

15

identified in the above paragraph 39 as an “appropriate order” in SCOTUS case number 18D3030.

16

Roberts can do that forthwith in SCOTUS case number 18D3030, without having to wait for the

17

CSBAR to be heard in this United States District Court case because in SCOTUS case number

18

18D3030 the CSBAR knew of its opportunity to have been heard, and was required to have been

19

heard in conformity of California Business and Professions Code Section 6001.1, but instead chose

20

to participate in the wrongdoing by choosing to refuse to act in conformity with California Business

21

and Professions Code Section 6001.1. Furthermore, in SCOTUS case number 18D3030 there is no

22

need to discuss, argue, debate, or deliberate, as there is no discretion, as there is only one course of

23

action to be taken, which is to immediately and fully grant the requested and long-overdue redress

24

and relief identified in paragraph 39 above because the subject, complained-of wrongdoing,

25

including its commission at SCOTUS, is a grave injustice which defiles SCOTUS by the corruption

26

which informs the entire world that SCOTUS is an institution presently without integrity, as

27

determined by the GOLDBERG, JACKSON, UNITED, ELLIOT, GRIFFIN, KALB, WAYNE, and

28

WILLNER cases. Assuming that Roberts has not at all participated in, and has been unaware of,

~2J7

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 28 of 31

1

the subject, complained-of wrongdoing that has occurred at SCOTUS, respectfully, Roberts is

2

expected to exercise intellectual honesty and recognize that by that wrongdoing, SCOTUS has been

3

defiled and has regressed to the evil of the peijorative “Star Chamber” by replacing the Rule of Law

4

with the rule of whimsical tyranny imposed to cover-up criminal malfeasance. Respectfully, it is

5

expected of Roberts to be duly outraged by that defilement of SCOTUS, and bring that corruption

6

to an immediate end by issuing an order in SCOTUS case number 18D3030 fully providing each

7

of the five items of redress and relief identified in paragraph 39 above, as Roberts does not have the

8

luxury of abstaining, or of otherwise failing to fully grant the remedy requested in paragraph 39

9

because Roberts, just like the CSBAR with California Business and Profession Code Section 6001.1,

10

has an affirmative duty to take complete remedial action as held by the HAZEL case, which, at page

11

250, dictates to Roberts to affirmatively exercise “both the duty and the power” to fully grant the

12

requested equitable relief. Only by Roberts fully and immediately granting the requested and long-

13

overdue equitable relief will Roberts properly discharge the duty of his sworn oath to uphold the

14

federal Constitution and the Rule of Law.

15

41. Any response by Roberts to this United States District Court lawsuit by which Roberts fails

16

to immediately issue an order in SCOTUS case number 18D3030 fully granting all of the redress

17

and relief identified in paragraph 39 above, will then reveal Roberts to be in league with the

18

criminal and civil malfeasance. Hopeftdly, that will not be the case, and Roberts, upon receiving

19

this lawsuit will immediately and fully grant the requested relief within no more that two weeks

20

from the point in time that Roberts directly receives this lawsuit, or is informed of it by the United

21

States Attorney’ Office being served with it (in the event that Wood and/or Silver attempt

22

obstruction of the service of this lawsuit’s Summons and Complaint on Roberts). But if Roberts

23

does fail to so immediately and fully provide tide requested relief, then I will move for summary

24

adjudication within this United States District Court lawsuit for that redress and relief to be fully-

25

granted by such motion, and the United States Attorney’s Office will have to recuse itself from

26

representing Roberts in this matter, as the United States Attorney’s Office, in loyalty to the federal

27

Constitution, must insist upon Roberts immediately granting the long-overdue redress and relief,

28

because the United States Attorney’s Office has no authority whatsoever, to advocate on behalf of

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 29 of 31

1

any of the Defendants herein for any sort ofperpetuation ofthe subject, complained-ofwrongdoing,

2

nor for the perpetuation of the consequential harm being caused by that wrongdoing.

3

42. Regarding Roberts, this lawsuit’s First Claim for Equity pursuant to the HAZEL case

4

respectfully requests an order issue from the United States District Court directing Roberts, as the

5

SCOTUS Chief Justice, equally in (l)Roberts’ judicial capacity, and as well in (2)Roberts’

6

administrative capacity, to, forthwith, make full written disclosure to me, of the identification of

7

each person who was involved in the issuance of the subject, complained-of March 4,2019

8

“disposition” in SCOTUS case number 18D3030, and the full scope of each such person’s

9

involvement. Respectfully, a similar order is requested to be issued adverse to Kagan, Wood, and

10

Silver, and each of them. It is also respectfully requested as a part of this lawsuit’s First Claim for

11

Equity pursuant to the HAZEL case that an order issue from the United States District Court

12

directing Roberts, as the SCOTUS Chief Justice, in Roberts’ administrative capacity, to, assign my

13

SCOTUS Rule 22 Motion to any SCOTUS justice who has not been involved in the subject,

14

complained-of wrongdoing, for that justice to rule upon that Motion in accordance with the federal

15

Constitution and the Rule of Law. Upon Roberts so informing of that assignment, I will duly re­

16

send that Motion to SCOTUS and to the attention of that assigned justice for the due adjudication

17

of that Motion.

18

VTTT- THE SECOND CLAIM - 42 SECTION 1983

19
20
21

43. Paragraphs 1 through 42, inclusive, are incorporated herein by reference as though fully set
forth here at.
44. The second claim is made adverse to the CSBAR and the DOE Defendants, pursuant to 42

22 Section 1983, the DENNIS case, and the KELLER case, for all of the consequential harm that I have
23 suffered, and continue to suffer, as identified in paragraph 35 above from the CSBAR s participation
24 in the subject, complained-of further extrinsic fraud imposed the deprivation of my federal
25 constitutional right of Procedural Due Process which was committed in SCOTUS case number
26 18D3030, which is entirely separate and distinct from the consequential harm which the First Claim
27 in this lawsuit seeks to recover, which the CSBAR participated in causing with the surreptitious
28 participation of state actor judicial officers.

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 30 of 31

1 DC. THE RELIEF BEING REQUESTED
2

45. Paragraphs 1 through 44, inclusive, are incorporated herein by reference as though fully set

3

forth here at.

4

46. By the two Claims being made in this United States District Court lawsuit, I hereby respectfully

5

request the following:

6

(1 )a j ury trial for the adjudication of this matter,

7

(2)an order allowing discovery to be conducted adverse to each of the Defendants pursuant to the

8

9

crime-fraud exception to the attorney-client privilege,
(3)for all of the compensatory damages being requested as to each of the two Claims,

10

(4)for all of the punitive damages being requested as to in each of the two Claims

11

(5)for all of the declaratory relief being requested in the First Claim,

12

(6)for all of the injunctive relief being requested in the First Claim,

13

(7)for litigation costs, and

14

(8) for all other proper redress and relief, whether legal in nature or equitable in nature.

15

DECLARATION REGARDING THE ATTACHED EXHIBITS

16

I, Martin Reiner, the Plaintiff in this case to be filed with the United States District Court for the

17

District of Columbia, hereby declare, under penalty of pequry, under the laws of the United States

18

of America, that each of the Exhibits referenced in the body of the Complaint herein is essential to

19

the determination of this Complaint and are accordingly so attached to the Complaint herein

20

pursuant to Local Civil Rule 5.1(e). I further declare under penalty of peijury, under the laws ofthe

21

United States of America that this declaration is being executed on December 17,2019 in Los

22

Angeles, California.

23
fc.

24
MARTIN REINER

25

26

VERIFICATION

27

I, Martin Reiner, the Plaintiff herein, verify and declare under penalty of peijury, under the laws

28

ofthe United States of America, that the foregoing allegations made in this complaint are true and

3o

Case l:20-cv-00031-APM Document 1 Filed 01/03/20 Page 31 of 31

1

correct, and are made of my personal knowledge and/or upon information and belief of which I

2

believe to be true, and that I make this complaint, along with this declaratory verification, in good

3

faith and for good cause, in Los Angeles, California on December 17,2019.

4
Ok

5
MARTIN REINER

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

31

USCA Case #20-5190

Document #1888014

Filed: 03/02/2021

Page 1 of 1

JStates (Emxvt of JVppeals
For The District of Columbia Circuit

No. 20-5190

September Term, 2020
1:20-cv-00031 -APM
Filed On: March 2, 2021

Martin Reiner,
Appellant

v.
John Roberts, et al.,
Appellees

BEFORE:

Srinivasan, Chief Judge, and Henderson, Rogers, Tatel, Garland,*
Millett, Pillard, Wilkins, Katsas, Rao, and Walker, Circuit Judges,
and Sentelle, Senior Circuit Judge
ORDER

Upon consideration of the petition for rehearing en banc, and the absence of a
request by any member of the court for a vote, it is
ORDERED that the petition be denied.

Per Curiam

FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Daniel J. Reidy
Deputy Clerk

*Circuit Judge Garland did not participate in this matter.

.....

w
W
i

il!

:■ BUREAU L

if*

...........
•--.......
{rnmm^Tmomr^oFFicE
HEALTHCARE FRAUD DIVISION

RAUD AND CORRUPTION PROSECUTIONS .

*i

mmm - STEVE COOLEY • Oistrid Attorney

i

JANICE L MAURIZI * Director

■R5p’ JOHN SP1LLANE ♦ Chief Deputy District Attorney
LSSSy** . CURTIS A. HAZELL * Assistant District Attorney

P:

: iv;:

- January
k' '22,2009

It

g|:

n

*

as?

:«>

V'

1?

CRUM & FORSTER INSURANCE
Ted Dineros, Special Investigations Specialist
1 City Boulevard, West, Suite 375
Orange, California 92868

P‘

Dear Mr. Dineros:
.................

ir-

:>e

ri

::

•:.

■>:

;

On December 22, 2008, we received your documented referral from your Workers'
Compensation Division:regarding:
ky

Claim Number: PZC00327060
Suspects) Name: Paiafox, Rosa
W.C.F.D. File Number; 4408

V*'
St

&

There is probable cause to believe that a tVadd: hais occurred in this matter. In order to
determine if there is sufficient evidence; to show guilt beyond a reasonable doubt; the
case has been assigned to Deputy District Attorney Sue Lasicka. Her telephone
number is 213-202-7700. You will be contacted by the assigned deputy within one (1)
week of your receipt of this letter.

:v

%

!•;

V

Very truly youcs,

:*
":v.

STEVE COOLEY
DistrictAttomey

t

O........ ;?•>

j* *

f-

r'

i.
S'.'
r?I?,

t.*r>

f

.

“V\

L.4;C*Vif

f.

v':

Assistant HeeciTJ'aputy District Attorney
AG
•Hifu
!•*:
::
a::
G

\

IS

i

ij
<4

:„V

c:

R^DM^cNARY,; Splpr Investigatoi;
.p^reau investigation, O.A.

!l-K.

;/

'*s:
Uii if O
f

S''

v;t: Ov> •
i.i

::

ii-

201 NorthFigueroaStreei
Flfiaertti Floor
Los Angeles. CA 80012
(213)5804200:

&
'.«•

I

?:*r

3:

::

I-

::

■*

::::

%
J*^EtfCEMcGRm; S'

Y:

'

::

tP}

S

*
y

i

■m

Case l:2G-cv-00G31-APM Document 1-1 Filed 01/03/2G Page 3 of 39

:::

:

:

::

irt

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 4 of-39__ _
ument 1-2 Filed09/28/15 PageC^ ,./50 PagelD#;94
Case 2:15-cv-07577
*;

DUPLICATE

;

if:-

1

?■

2i

OP THE STATE OP CALIFORNIA

3

Vi

DEPARTMENT - LOS ANGELES

4
I

s

In the Matter of:

5

6 MARTIN BARNETT REINER, ESQ
7

Respondent.

)
j

Case No. 09-0-I0207-PEM

}

..

i

)

8

;r

:s:

9
10
11

:s
&

TRANSCRIPT OF PROCEEDINGS
BEFORE THE HONORABLE PATRICE E. MCELROY
TUESDAY, OCTOBER 30, 2012
1149 SOUTH HILL STREEP
LOS ANGELES, CALIFORNIA 90015
1

12 APPEARANCES:

;:tt

■!

:::

13 For the State Bar:
14
15
16 For the Respondent:
17
18

MICHAEL J. GLASS, ESQ.
The State Bar of California
1149 South Hill StreetLos Angeles , California 90015

V:

MARTIN B. REISER, ESQ.
9025 Wilshire Boulevard
Shite 301
Beverly Hills, California:
90211
(310) 273-7127

}

19
:
20 Courtroom Recorder;

Angela Carpenter

;

si:
Q-

22 Proceedings recorded by digital recording; transcript

©

23

■•v

M

24

p:
v

25

5

i|
Briggs Reporting Company, Inc.
6336 Greenwich Drive, Suite B
San Diego, California 92122
(310) 410-4151

5.!
;
:

;■

h

©
Briggs Mepmmg Company, Inc.

ii

3.5

*i
fii
1:1

!i

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 5 of 39

54
1I Q

Okay,

paid you recognize the document; identified as

2 State Bar Exhibit 17?
3

a

Yes.

This is the
document whereby they refused to
.............................................................................

:j

4 recognize federal constitutional law, Specifically in the
5 second paragraph.
; ..

They quote me as objecting to the

r:

6 sanction order as patently unconstitutional as "over-broad."
7 They put that in quotes, and then the next sentence is "We
8 disagree.,!

Well, unfortunately, federal law, under the
::

91 Yacrman case, rules, and these orders are going to be
10 overturned.
11 Q

Okay.

Did the document identified as State Bar

12 Exhibit 17 — il that the Workers' Compensation Appeals
13 Board'S order imposing sanctions against you in the amount
14 of $2,500, payable to the Workers' Compensation Appeals
15 Board?
16 A

V7

Yes, sir.
THE COURT:

So Exhibit 17 is admitted into

Okay.

18 evidence.
19 BY MR. GLASS:

20 Q

And as of February

at any time after February 23rd,

21 2010, did you ever pay those sanctions to the -

the $2,500

22 in sanctions to the Workers’ Compensation Appeals Board?
23 A

NO, because they are being constitutionally challenged

24 m tiie federal court at present and, because the California
25 judiciary would not execute justice, 1've had to file a

r.

30

Inc.

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 6 of 39

55
1; federal lawsuit .

If it turns; out that those .orders are

2 upheld as constitutional, then I will pay them, but my
3 intention, my mind set, is to first exhaust all possible
4 challenges, legal challenges.
5

My mind set, my intention, Is not to simply refuse to

6 obey a court order.
7 orders.

I will obey all appropriate court

It's my position that these orders are not

8: appropriate, legally, ethically, any other way, and that
they're going to be overturned.

They're going to be

10 overturned by the federal court.
11

:

On that basis, again, I hereby move for dismissal of

12 disciplinary charges, because these orders are not final
13 orders, and V you know, the Rosa Palafox case, we just had a
14 status conference on that case yesterday, and these issues
15 are going to be a part of the case, independent of what the
16 federal court does, but they’re not even remotely final
?;■

17 orders.
18 Q

Okay.

With regard to State Bar Exhibit 17, Bates stamp

19 page two, the Court ordered that you pay those sanctions to
20 Rick Dietrich, secretary and deputy commissioner of Workers'
21 Compensation Appeals Board.
22 A

Is that Correct?

Yes, at the address Post Office Box 429459, San

23 Francisco, California 9194142-9459 (sic), attention Annette
24 L. Gabrielli, G-A-B-R-I-E-L-L-I.
25 Q

Okay.

And you never paid those sanctions, correct?

37

Briggs ReporimgCompuny, Inc.

-A
:i::

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 7 of 39
i!
5
:

56

ii A

Because they’re being challenged:.

2 orders.

They're net; final

They’re being constitutionally challenged in the

3 federal court presently. ' If the federal court determines
. -i

4 that they're^ constitutionally valid, I will have exhausted
5 all of my challenges to these orders, and I will then pay
6 them.
7

If the federal court finds that they are

8 constitutionally; rnyalid,; then, of course, I will not pay
9 them, and, of course, this prosecution of this imposition of
10 professional discipline, again, is premature and should be
11 dismissed.

Again, for the record, I hereby move for

;12! dismissal of these proceedings, without prejudice, on the
13 basis that it:' s premature, that these are not final orders.
14 Q

Okay.

Next I'd like you to please look at State Bar

15 Exhibit 18, and that consists of five pages, and I' 11 ask if
16 you recognize that document.
17 A

:::::

Yes, sir.

18

THE COURT:

I think that's already been admitted.

19

MR. GLASS:

Yes.

20

THE WITNESS:;

I recognize it, yes, and it appears

21 to be a fair and accurate copy of that document.
22 BY MR. GLASS:

l

23

q

okay.

And in State Bar Exhibit 18, was there an order

24 that you pay the Graiwer and Kaplan the sum of: $1,000 in
25 attorneys' fees?

And I'm referring to Bates stamp page

3?

;

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 8 of 39

62
1

THE COURT:

Well, why don’t1 we just answer it one

2 more time
3

THE WITNESS:

Okay.

You know, again,: I have not

4 paid that attorney fee order, nor any of the sanctions that
5 are the subject of this disciplinary charge, on the basis
6 that it is premature to do so, that these orders, these
7 subject orders, are under consideration for being
8 constitutionally invalid, and that, upon the determination
S'

of their federal constitutiona1 validity or invalidity by

10 the federal judiciary, I will either pay them, if they’re
11 found to be valid, and I've then exhausted my challenges, or
12 I will not pay them, if they’re found to be invalid.
13

Again, it's my mind set and my intention to obey

14 the orders of courts of the state of California and any
15 other state of this union, and the federal court, but I'm
16 entitled to exhaust all challenges, and that's what I'm in
17 the process of doing.

Unfortunately, your co-defendants in

18 that federal lawsuit did not execute justice.
19 summarily denied the petitions and writs.

I mean, they

So I've had to

20 turn to the federal court, and we'll see what they say, but
21 I certainly have no intention of disobeying court orders.

I

22 simply want to have my legal challenges exhausted.
23 BY MR. GLASS:
24 Q

And at any time after September 7, 2010, did you ever

25jpay the $2,500 in sanctions to the Workers' Compensation

Briggs Reporting Company, Inc.

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 9 of 39
it-

iv

69 1
1 should want to hear that all the more.
:;

2

THE COURT:

%

THE WITNESS:

Okay.
As a State Bar; attorney

'i

4 respectfully, as a State Bar attorney, you should want to
5 hear all of that.
6

THE COURT:

Okay.

7 gist of your argument,

And I've heard it

T get the

So the issue is whether there’s a.

8 failure to obey a court order, and you’ve admitted -9

i!
I'm happy to obey it
once in becomes

THE WITNESS:

10 final, once all of the challenges are exhausted.

If it’s

11 found to be constitutional, I will pay it.
' 12

THE COURT:

13

Okay.

THE WITNESS:

If it' s found to be unconstitutional,

14 as I believe it is, I will not pay it, because I won't need
15 to pay it.
16

THE COURT:

17 your

Okay.

that's your mind set.

18

THE WITNESS:

19 {pay.

So, at this point, that's what

| will always pay

My mind set is that I am happy to
I will always cooperate.

I will

'

20 always be: ethical with the State Bar, but I ' ve got orders
21 here that were issued unethically, illegally, and as a
22 carry-through on a threat to me, for my pursuing legal;;
23 ethics, and that has to be addressed.
24

Now, the California judiciary had an opportunity to

25 do that.

They summarily denied it.

They didn't say, "This

.UUXvX

MO

Briggs Reporting Company, Inc.

*

■■■*

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 10 of 39

:

71

1 ctid have ope witness scheduled for tomorrow.
2

THE COURT:

But you rested, and all the exhibits

3 are in, except for that one exhibit.
4:

THE CLERK:

Is that 11?

5

THE COURT:

Yes.

6

MR;: GLASS:

Yes, that was 11

1

THE COURT:

You rested

8

MR. GLASS:

Well, I would move to reopen, just: with

.

:■>

I think

Sfregard to discuss the issue of -- 1 know we’ve had testimony
10 that
ij

11

MR. REINER:

No objection from me.

If he wants

12 to:: ~

I

13

THE COURT:

What’s

14

MR. GLASS:

What T would propose is, we had

:15: testimony from Mr. Reiner that he did not pay the sanctions
16 to the Workers’ Compensation Appeals Board.
17:

THE COURT:

I mean, he admits that he hasn't paid

18 anything, and he's not going to pay anything until he is told
13 by the federal courts to do it.
20

MR. GLASS:

21

MR. REINER:

22

THE COURT:

Or not do it.

23

MR. REINER:

No, no, no.

24

THE COURT:

25

MR. REINER:

*

I would —
No, that's not — no, no, no.

.:

What are you —,
Respectfully, that's not accurate.

M\

I

•I

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 11 of 39

-*!•
&

72
1 mean, I have a right to challenge these legally, and the fact
2 that: the: California ::judiciary has •just
turned
its blind eye
•
...............::
i
3 to it, that doesn' t mean that I doit't have the right to bring
4 it to the federal judiciary.
5:

THE COURT:

€

MR. REINER:
..............

7

unless I 'iri told.

Right.

i!

I'm not arguing with you.

So it' s not
that
I 'm paying:: :::(sic)
"
.......

I mean, it' s not my attitude t©: be;

:::

negative.

8

9-

THE COURT:

10

MR. REINER:

m

THE COURT:

12 than I have.

No.

T misstated: it.

j;

Okay.

You have said it a lot more artfully

Okay?

13

MR. REINER::

14

MR. GLASS:

And ;:I: thank you.
And what

was going to do was make an

15 offer of proof that Mr. Dietrich is the person that would
16 come to testify tomorrow morning with regard to State Bar
17 Exhibit li, with regard to the letters and the efforts
;i
18 expounded by the Workers' Compensation Appeals Board to
19 obtain the -20
21
i-

THE COURT:

Well, isn't that just cumulative?

MR. GLASS:

Well, it would be in aggravation, a

:!

22 factor in aggravation.
23

MR. REINER:

24

THE COURT:

:>!

I don't object.

That's fine.

Well, why don't we just have him
.

25 stipulate to Number 11 coming in?

<:

42-

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/2Q Page 12 of 39

:

••

;:

EXHIBIT 3

;

m

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 13 of 39

II. REINER IS CULPABLE OF DISOBEYING COURT ORDERS
The State Bar charged Reiner with two counts of failing to obey court orders in violation
of Business and Professions Code section 6103.3 That section provides, in relevant part, that
“wilful disobedience or violation of an order of the court requiring [an attorney] to do or forbear
an act connected with or in the course of his profession, which he ought in good faith to door
forbear, and any violation of the oath taken by him, or of his duties as an attorney, constitute
causes for disbarment or suspension.” Count One alleged Reiner failed to obey the July 23,2007
order to pay $2,500 sanctions in the Ezra case. Count Two alleged that hefailed to obey two
court orders in the Palafox case: (1) the February 23,2010 sanctions order for $2,500; and
(2) the June 21,2010 sanctions order for $2,500, along with the $1,000 attorney fees order.
Reiner claims he cannot be culpable of violating section 6103 because the orders are not
final pending the outcome of his federal lawsuit. The hearing judge correctly rejected his claim
and found him culpable as charged.
A.

The State Court Orders Are Final and Enforceable for Discipline Purposes
1. Reiner Knew of the Orders
To establish that Reiner wilfully disobeyed a court order under section 6103, the evidence

must show that he knew there was a final, binding court order. {In the Matter ofMaloney and
Virsik (Review Dept. 2005) 4 Cal. State Bar Ct. Rptr. 774,787 [attorney’s knowledge of final,
binding order is essential element of violation].) “[A] WCAB decision becomes final for
purposes of res judicata when it constitutes the last word of the rendering court and the appellate
courts have denied review.” {Marsh v. Workers ’ Comp. Appeals Bd. (2005) 130 Cai.App.4th
r

906,916.) Reiner knew about the orders and that his challenges to them in the California

3 All further references to: sections are to this source.
-6-

H4

::::

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 14 of 39

Western Development Corp v. Superior Court (1989) 212 Cal.App.3d 860, 867 [appellate judges
not disqualified because litigant filed discrimination lawsuit naming them as defendants],)4
B.

State Bar Court Has Jurisdiction Over Disciplinary Cases
Reiner asserts that the State Bar Court lacked jurisdiction to determine the constitutional

validity of his claim under Article HI, section 3.5 of the California Constitution. This authority
is not relevant to these proceedings because it prohibits an administrative agency from declaring
a statute unenforceable or unconstitutional; Reiner challenges court orders. ■. ■. Also, the hearing
judge did not determine the constitutionality of the orders; she simply recommended discipline
forReiner’s failure to obey them, as she is authorized to do. (§ 6087 [Supreme Court may
authorize State Bar to take any action regarding attorneys otherwise reserved to it); Jacobs v.
State Bar (1977) 20 Cal.3d 191,196 [Supreme Court retains exclusive power over attorney
discipline with State Bar as administrative arm].) Ultimately, Reiner may raise his federal claims
before the California Supreme Court by petitioning for review of a State Bar Court Review
Department decision. (See Hirsch v. Justices of the Supreme Court of California (9th Cir. 1995)
67 F.3d 708,713 [federal constitutional claims can be raised before California Supreme Court in
petition for review after disciplinary proceedings in State Bar Court].)
C.

No Proof State Bar Acted in Bad Faith
Reiner asserts that the prosecutor should be disqualified and the State Bar is proceeding
::

on falsehoods. No evidence supports this assertion, and Reiner failed to provide citation to the
record, statutes, case law, or other authority establishing the State Bar is biased against him.

4 We also reject Reiner’s claim that the hearing judge improperly ruled on her own
motion for disqualification. On October 29,2012, the day before his trial, Reiner filed a motion
to disqualify the judge because she wa§ a named defendant in his federal lawsuit. I he judge
properly ordered the motion stricken because it disclosed no valid legal grounds for
disqualification. (Code Civ. Proc. § 170.4, subd. (b).)
-10-

H5*

Case l:20-cv-00031-APM Document l-l Filed 01/03/20 Page 15 of 39

::

EXHIBIT 4
HU

:::

l*:

v:

Case 1:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 16 of 39

$

:>;•

xxtxx

Y;

-v

X

3

: :•

• ;•

FEED

xi

::x:

£

2s

-1

:ir:

x

••• •:

k:

si

t

*

SEP 01 ML
■k

:A

r!

:S

*

sTAiKBaRCXJOio:

::x

U•

:x

caasss office

3
»*>

::

• :>»y--«x-x

:: :>

x

s

*8

x-

■<

LOSANGELES

.=

3

STATE BAR COURT OF CALIFORNIA

Is.

X'

?■

!“•

V

x
x

■*

REVIEWDEFARTMENT
x

::

V

::

x

:x;

rr-

•*

x

X

if.
rx

■ •

V

V:

:*l

X??

•r

'X

MARTIN BARNETT REINER,
k

>

::.r.

:».

::

:Y

X

In theMatter of

•w .

; x-

«; A Member oftheState Bar, No.

)
)

Cas^No. 14-N-06382

)
)
)

order

:::«

•: X

x

% v' *

;?

x'iL

x

V

4:

«*• ' -

Ik:

ii

:

X;;
X:
t

On inly 26, 2016, respqB^^|^ed a4^a^l3r

:

Oa Angus* 29,2016, the

,
Y:

'/a.’"

OMce of tiie.Chief Trial Counsel oftfee^tafceBar

x?

i xx

:

•” •

epBosffion.

Y.

1

Fiildmg no good cause, respondent’s desMtadfor disclosure Is denied.
*

‘

-

*

’

.

*

>

-;

/

i'i:

.•

»::

3
;s; r- x

■> v.x
t,:

Y'

,n-:i

•T

X

''' ::«i '.t::

,t. x",“

...

.=?

•v r

*

; X:

ill

X:

-X X"

.v

IviY'''

it.

it

\
X.

x

■:n

•■•X,

,:-'S

xr

: "r:k

■■■.

'I-'

X

!:!

?v

x‘

;•

X-

■s.

’■\4

x

:

x;-:'

X-

,:'iv

yrV-

ri‘

=i';

x1

-i:^ =

x
•Y-.ii

x

x

x

;->x

i?

f '■

a

■■■■

-hi

x:

:x

■•rx:
*■:

::

:?
%.■

::

JM

■k
■i

'i

v
k

'&

x'

xx:

::

•#
;!

X;

S-:v
:.;x

4

‘ ::x

;x

:*

x:

:y;
3•

>

:Y
x

HI

-i

•>
x-

x.

•:x:

£•'

$

•»;

'v

;T x:

•:Y
■f

ir

::

:Y:

Y:

h
r;-

X:

x::;
i:

vx

:«

XXv_

fr
y- V‘-

Case l:20-cv-00031-Amor&mwm*k<kc£M{M&&0 PaSe 17 of 39

i, .62018

i
i

:

\

;•

Appellate Courts Case Information
'.t::

:::

■•■■■•■I

Supreme Court

::

.v.;

[Changecourt ▼[

Court dat? last updated: 07/15/2018 11:55 PM

Disposition
REINER v. STATE BAR OF CALIFORNIA
Division SF
Case Number S237293

;;;

Only the following dispositions are displayed below; iOrders Denying:Petitions, Orders:Granting Rehearing and
Opinions. Go to the Docket Entries screen for information regarding orders granting review.
Case Citation:
none
K"--f'..r';

Date
j 10/12/2016

[Description

I

t

^andate/Prohibition petition denied

J

Click here to request automatic e-maii notifications about this case.

Careers | Contact Us :| Accessibility | Public Access to Records |
Terms of Use j Privacy

© 2018 Judicial Council of California

ij

*•
httpy/at^Iatec^w:cburtirTfo.caaovfei^nhfc»eftfisDQsifi<yi.cfhni?tfRf=r»<ln(;

:•

<-\S
«tvi..^^or»/ocMA.M1o»,. ... <n

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 18 of 39

::
::

EXHIBIT 5
D
r.

m

f

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20, Page 19 of 39

%

Reiner contends his non-compliance is justified because he believes the i Supreme Court’s
order in Reiner 1 is invalid and unlawful. He claims that he was “fully exonerated” of the
underlying charges in Reiner I, and that, accordingly, this “derivative” matter must be dismissed.
We reject his attempt to collaterally attack the Supreme Court’s prior imposition of
discipline—it is long since final and binding (In re Rose (2000) 22 Cal.4th 430,441-442), and
we are without authority to set aside an order of the Supreme Court. (Cal. Rules of Court,
rule 9; 10; In re Applicant B (Review Dept. 2004) 4 Cal. State Bar Ct. Rptr. 731,733.)
Moreover, “[rjegardless of [Reiner’s] belief that the order was issued in error, he was
obligated to obey [it] unless he took steps to have it modified or vacated.” (In the Matter of
s

Klein (Review Dept. 1994) 3 Cal. State Bar. Ct. Rptr. 1, 9, fh. omitted; see also In the Matter of
Rpym? (Review Dept. 1993) 2 Cal. State Bar a. Rptr. 389,403-404].) If Reiner wanted to seek
review of Reiner I, the appropriate avenue of relief was with the United States Supreme Court.
(McKay v. Nesbett (9th Cir. 1969) 412 F.2d 846, 846 [“orders of a state court relating: to the
admission, discipline, and disbarment of members of its bar may be reviewed only by the
Supreme Court of the United States on certiorari to the state court”l.') The record does not
indicate whether Reiner sought such review^ but his time to do so has since expired, and Reiner I
is now final and unchallengeable. (Maltamanv. State Bar (1987) 43 Cal.3d 924,952 [“no
plausible belief in the right to ignore final, unchallengeable orders one personally considers
invalid”].)

2

Rule 9.20(c) provides: “Within such time as the order may prescribe after the effective
date of the member’s .. suspension,;.the member must file with the Clerk of the State Bar
Court an affidavit showing thathe ...has fully complied with the provisions of the order entered
under this rule [including notifying all clients, co-counsel, and opposing counsel of the
suspension; delivering to all clients in pending matters any papers or other property to which the
clients are entitled; and refunding any part of fees paid that have not been earned]. The affidavit
must also specify an address where communications may be directed to the ... suspended...
member.”
-4-

SO

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 20 of 39

:

EXHIBIT 6
■:

51

:

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 21 of 39

the wrm^Bm

m
g$[T|M OF CALIFORNIA
s'-

p?

180 HOWARD STREET, SAN FRANCISCO, CALIFORNIA 94105-1639

November 6, 2017

MEMBERSHIP BILLING
OFFICE OF FINANCE
TELEPHONE (415) 538-2360 / FAX (415) 538-2361

Agency Code:

X7

144024
Martin B. Reiner
9025 WilshireBlvd #301
Beverly Hills, CA 90211
;
5
!
;i

Dear Martin B. Reiner:
Our records show that you have a $22,275.75 delinquent debt due to the State Bar of California. You ..
have 30 days to voluntarily pay this amount before we submit your account to the Franchise Tax Board
(FTB) for interagency intercept collection.
FTB operates an intercept program in conjunction with the State Controller’s Office, collecting
delinquent liabilities individuals owe to state, local agencies, and colleges. FTB intercepts tax refunds,
unclaimed property claims, and lottery winnings owed to individuals. FTB redirects these funds to pay
the individual’s debts to the agencies/colleges (California Government Code Sections 12419.2,12419.7,
12419.9, 12419.10,12419.11, and 12419.12). ..........................................................................................

i;

If you have any questions or do not believe you owe this debt, contact us within 30 days from the date of
this letter at (415) 538-2365. A representative will review your questions/objections. If you do not
contact us within that time, or if you do not provide sufficient objections, we will proceed with intercept
collections.
Sincerely,
David Wolf, Finance Manager
Member Billing Services

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 22 of 39

::

::

EXHIBIT 7
53

2/19/2018

Case l:20-cv-00031-APM DocumeWM^IsitecI 01/03/20 Page 23 of 39

BOARi OF IRDSTIIS MEETING
AGENDA
The State Bar of California
180 Howard Street
Board Boom, 4th Floor
San Francisco, CA 94105
(415) 538-2000
Monday, September 21,2015
10:00 a.m. - 4:00 p.m.

$

;-MV,'•'•■■■,
“■■■■■■■■

The order of business is approximate and subject to change.

I

:
!

For meetings of the Board and Board Committee(s)J the Board of Trustees meeting
will commence at the conclusion of the Board Committee meeting(s). Ail times
indicated and the order o f business are approximate and subject to change.

!

i

OPEN SESSION

::

1 GUEST SECTION
*: •:

Call For Public Comment

30 PRESIDENT’S REPORT
j:

30 -1 Approval of Amendments to 2015-20T6 Calendar
30 - 2

Special Presentation of Resolution

40 STAFF REPORTS

htipV/board:calbar.ca.go^Agenda.3sp)«d=11088&t=08s=false

SM

1/3:

2/19/2018

Case 1:20-cv-0003l-APM DocumeM^^^Ffled 01/03/20 Page 24 of 39

41 Executive Jirector
42 Secretary
50 CONSENT AGENDA
50-1

Proposed Amendments to Committee Application Form

700 MISCELLANEOUS
701

Appointment to Fill District 1 Vacancy

702

Exception to CalPERS 180 Day Wait Period to Contract with
Retiree (Multiple)

703

Grant to Fund Legai Services Programs in Rural Areas - WITHDRAWN

704

Appointment of Successor Secretary

705

Fee Statement Format Update

706

State Bar's Case Management System

708

Report and/or Recommendations re Compliance with Audit - Committee
Chair Updates re implementation of Recommendations

709

Update re Revisions to Board Book ■

710

Report and/or Recommendations on Development of 180 Howard Building

711

Report and/or Recommendations on Fiscal Reforms and Transparency
Measures

712

Update re Workforce Redundancy Analysis and Workplace Planning

713

Re-Appointment or Recruitment of Chief Trial Counsel

714

■ Update re Fee Bill, Amendments and Implementation:of New;Measures

715

Update re Bar Pass Working Group initiative

716

Update re Mentoring Taskforce Report and Public Comment

a

The State Bar

htip^yboarcJxalbar.ca.goVAgenda.3sp)«d=il688&t=0&s=fa!se

S’ST

2/3

2/19/2018

Case l:20-cv-00031-APM DocumdtWQAs'Pifed 01/03/20 Page 25 of 39

CLOSED SESSION
7000 MISCELLANEOUS
7001

Claim of Martin Reiner
*Closed pursuant to Business and Professions Code §6026.5(a).

7002

::

Sander v. State Bar Litigation*
*Closed pursuant to Business and Professions Code § 6026.5(a).

7003

Dunn v. State Bar Case No. BC563715 (LA. Super.Ct., filed Nov: 13,2014)*
*Closed pursuant to Business and Professions Code § 6026.5(a).

7004

Consultation with Counsel on Matter with Significant Exposure to Litigation*
*Closed pursuant to Business and Professions Code § 6026.5(a).

ADJOURN
X

Mtp:/A»ard.calbar.ca.gov/Ag endaasp^d=11088&t=0&s=felse

Sk

m

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 26 of 39
:

::

:

.

EXHIBIT 8
57

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 27 of 39

'Tilt Halt Bar of California
Office of General Counsel
180 Howard Street, San Francisco, CA 94105-1617

Robert 0. Retana, Deputy General Counsel
robeitretana@calbar.cs.gov (415) 538-2337

My 24,2018
Via Email Only
Mr. Martin Reiner
9025 Wilshire Boulevard, #301
Beverly Hills CA 90211
martinremerlaw@yafa.oo.com
Dear Mr. Reiner:

::

We have received the Petition for Review which you submitted to the United States
Supreme Court We have also received your email messages demanding that the Office of Chief
Trial Counsel file a Petition Coram Nobis with the California Supreme Court related to your
disciplinary proceedings.
The various arguments you make in your petition and in your messages have already
been considered and rejected by the State Bar Court and the California Supreme Court There is
no need to reiterate: them to the Executive Director, General Counsel, Chief Trial Counsel, or any
other State Bar personnel. We assume that you have fully briefed the issues in your petition and
that the United States Supreme Court will decide what, if any, action it needs to take based upon
the issues raised in your petition. We will review the petition and determine whether a response
is necessary. Moreover, we respectfully decline to accept the settlement offer in your email
dated My 23,: 2Q1 :
Lastly, in your July 20th email message, you state the intention to resume the practice of
law while disbarred. As you should know, doing so would constitute the unauthorized practice
of law (“UPL"). You may wish to research the applicable law in order to understand the various
civil and criminal consequences of engaging in UPL. Information on this topic is available on
the State Bar website.
Very truly yours,

Robert G.Rffana
Deputy General Counsel
Office of General Counsel
The State Bar of California

St

Case l:20-cv-0Q031-APM Document 1-1 Filed 01/03/2G Page 28 of 39

:
:
:

:

EXHIBIT 9

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 29 of 39

:-*!
'A

S1FRBME: COURTOF
OFFICE OF F&CSLERKi
::WASMP0TOl,:I>€ 20543-0001
August 16, 2018

!*

Martin Reiner
9025 Wilshire Boulevard
#301
Beverly Hills. CA 90211
Dear Mr> Reiner:
:::

The Court is in receipt of your brief, proposed order, appendix, arid supplemental
brief. These papers fail to comply with the Rules of this Court and are herewith
returned.
Supreme Court Rule 8 does not provide an avenue for you to seek the review of
disbarment or disciplinary proceedings. You may seek review of a decision only by
filing a timely petition for writ of certiorari. The papers you submitted are hot
construed to be a petition for writ of certiorari. Should you choose to file a petition for
writ of certiorari, you must submit the petition within the 90 day time limit allowed
under Rule 13 of the Rules of this Court. Please note, your case must first be reviewed
by a United .States court of appeals or by the highest state court in which a decision
could be had. 28U.S.C. §§ 1254,1257.
If the Court initiates an action pursuant to Supreme Court Rule 8, you will be
afforded an opportunity at that time to show cause why disciplinary action should not
be taken by this Court.
Sincerely,
Scott S. Harris, clbrk

::: :

By:]^

&
fT

Laurie Wood
(202) 479-3031

;?

Enclosures
:::

:V

(aO

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 30 of 39

::

"w.

EXHIBIT 10
*:■

41

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 31 of 39
SUPREME COURT OF THE UNITED -STATES!
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
February 15,5019
Martin Reiner
9025 Wilshire: Boulevard
#301
Beverly Hills, CA 90211

Dear Mr. Reiner:
Your application to vacate received February 12, 2019 is herewith returned for the
following reason(s):
You may seek review of a decision only by filing a timely petition for writ of
certiorari. The papers you submitted are net construed to be a petition for writ of
certiorari. Should you choose to file a petition for writ of certiorari, you must submit the
petition within the 90 day time limit allowed under Rule 13 of the Rules of this Court.
Note that your case must first be reviewed by a United States court of appeals or by the
highest state court in which a decision could be had. 28 USC 1254 and 1257.
:

If you wish to file an application for stay under Rules 22 and 23 of the Rules of this
you must do so in full compliance with those rules.!This includes the requirement
that you first seek the same relief in the appropriate lower courts and attach copies of the
orders from the lower courts to your application filed in this Court.

Sincerely,
Scott S. Harris. Clerk
By:./
Mara Silver
(202) 479-3027

\

Enclosures

:

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 32 of 39
::

::

::

:

-i

EXHIBIT 11

m
::

A

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/2Q Page 33 of 39

*

(Smart of %

PatfipsgSmiP. (If. 2sp#

March 4, 2019

Mr. Martin Barnett Reiner
9025 Wilshire Boulevard, Suite 301
Beverly Hills, CA 90211
Re: In the Matter of Disbarment of
Martin Barnett Reiner. D-Q3Q3Q

Dear Mr. Reiner:
The Court today entered the following order in the above-entitled
case:
Martin Barnett Reiner, of Beverly Hills, California, having been
suspended from the practice of law in this Court by order of October 29,
2018; and a rule having been issued and served upon him requiring him to
show cause why he should not be disbarred; and a response having been

^ is ordered that Martin Barnett Reiner is disbarred from practice
of law in this Court.

Sincerely.
SCOTT S: HARRIS
Clerk
By
Laurie Wood
Deputy Clerk

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 34 of 39

:::

EXHIBIT 12
:::

*

4W2C19

*.

Case 1:20-cv-00031-APM sBoctsa^eral dcitofM©elt&yfll3/20 Page 35 of 39

*=:

;;
^Search: tJoeymbstsfrtthis easel

Searcn |1

.........................................m

No. 18D3030
Title:

RB^iMARtriN

AlfyName:

Martin Barnett Reiner
t

! City/State:

Beverly Hilis, California

j

::
Sex:

l

Barno:

203528

:
oLowerCfc::

Supre m e Goti ft of Ga lifo rnia;

1!:

:::

Action:

Disbarred

DATE

PROCEEDINGS AND ORDERS

Jul 13 2018

Suspense Filed

Oct 29 2018

Suspense Order
•::::

i

Feb 11 2019

Response Filed

Mar 01 2019

Response Conference

Mar:04 2019

Final Order-Disbarred

u*
httpsy/www.supr«jBcourt.g <^se^^p^ien^s/c(oc^docfeaTles/hW/pub!ic/18d3030.ht!«
1/1

:y

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 36 of 39

f:

:::

EXHIBIT 13
:

m

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20: Page 37 of 39
SUPREME: COURT OF THEiUMEFiB STATES
-OFflCE:OF:>rHE:CiyEMlC................
20543-0001
April 22,2019
Martin Reiner
9025 Wilshire Boulevard
#301
Beverly Hills, CA 90211
RE; 18D3030
Dear Mr.: Reiner:
CiliApi 18,2019, the Court recei ved your pleading in equity and request for judicial
Mese papers are herewith returned for the reason outlined in the April 5,2019
letter returning them in the first instance.

Sincerely,
Scott S. Harris, Clerk
By:- v
Laurie Wood
(202)479-3031

Enclosures

US

f

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 38 of 39

;•

:::

EXHIBIT 14
m

!

APPENDIX E

Case l:20-cv-00031-APM Document 1-1 Filed 01/03/20 Page 14 of 39
::v

Western Development Corp v. Superior Court (19Z9) 212 Cal.App.3d;860,867 [appellate judges
not disqualified because litigant filed discrimination lawsuit naming them as defendants].)4
B.

State Bar Court Has Jurisdiction Over Disciplinary Cases

:'iv

Reiner asserts that the State Bar Court lacked jurisdiction to determine the constitutional
validity of his claim under Article III, section 3.5 of the California Constitution. This authority
is not relevant to these proceedings because it prohibits an administrative agency from declaring
a statute unenforceable orunconstitutional; Reiner challenges; court orders. Also, the hearing
judge did not determine the constitutionality of the orders; she simply recommended discipline
for Reiner’s failure to obey them, as she is authorized to do. (§ 6087 [Supreme Court may
authorize State Bar to take any action regarding attorneys otherwise reserved to it]; Jacobs v.
State Bar (1977) 20 Cal.3d 191,196 [Supreme Court retains exclusive power over attorney
discipline with State Bar as administrative arm].) Ultimately, Reiner may raise his federal claims
before the California Supreme Court by petitioning for review of a State Bar Court Review
Department decision. (ScsHirsck v. Justices of the Supreme Court of California

Cir. 1995)

67 F.3d 708,713 [federal constitutional claims can be raised before California Supreme Court in
petition for review after disciplinary proceedings in State Bar Court],)
C.

No Proof State Bar Acted in BadPaith
Reiner asserts that the prosecutor should be disqualified and the State Bar is proceeding

on falsehoods. No evidence supports this assertion, and Reiner failed to provide citation to the
::

record,; statutes, case law, or other authority establishing the State Baris biased against him.

4 We; also reject Reiner’s claim that the hearing judge improperly ruled on her own
motion for disqualification. On October 29,2012, the day before his trial, Reiner filed a motion
to disqualify the judge because she wa§ a named defendant in his federal lawsuit. The judge
properly ordered the motion stricken because it disclosed no valid legal grounds for
disqualification. (Code Ciy. Proc. § 170.4, subd. (b).)
-10::

::::

V

APPENDIX F

To:

Chief Justice John Roberts

From: Martin Reiner
Re:

Reiner vs. Roberts, et al.,
United States District Court Case No. 1:20-cv-00031

Date: January 15,2020

Dear Chief Justice Roberts:
Concerning the above referenced matter, enclosed please find (l)a copy of
the Complaint, (2)the Request for Waiver of the Service of the Summons,
(3)two copies of the Waiver Form, and (4)a self-addressed, return envelope
in which you can send to me a dated and executed copy of the Waiver Form.
Please do date, execute, and return to me the Waiver Form promptly.
Sadly, the above referenced lawsuit is required due to the scandal of
extrinsic fraud being imposed upon the institution of the Supreme Court of
the United States (“SCOTUS”) by persons employed at SCOTUS, which is
subjecting me to a wrongful deprivation of my federal constitutional right of
Procedural Due Process in violation of Title 42 United States Code Section
1983, as equally a matter of criminal malfeasance in violation of Title 18
United States Code Sections 241, 242, and 1512 (c)(2), which violently
assails the Rule of Law in the defilement of SCOTUS, and in destruction of
the integrity of American jurisprudence.
The above referenced lawsuit assumes that Your Honor has not been a
participant in the subject scandalous malfeasance and that Your Honor is a
person who stands for the truth and who is insistent upon justice. The above
referenced lawsuit respectfully calls upon Your Honor to properly extricate
my deprived federal constitutional right of Procedural Due Process from the
obstructing, wretched clutches of those who are participants in the subject
criminal malfeasance. The above referenced lawsuit does so respectfully call
upon Your Honor to properly, fully, and immediately, without any
hesitation, provide the long-overdue redress and relief to which, under the
Rule of Law, and certainly as a matter of Equity as well, I am entitled in the
subject, underlying SCOTUS case. The subject, complained-of wrongdoing,
of null and void court orders being issued in defiance of the Rule of Law,
1

and then perpetuated as a nullity in further defiance of the Rule of Law, can
never, ever be legitimized. Respectfully, the only course of action that Your
Honor can properly take is to fully, and immediately, without any hesitation,
provide the long-overdue redress and relief to which I am entitled, as the
Complaint in the above referenced lawsuit respectfully asks of Your Honor.
That course of action is the sole imperative for Your Honor. Our society’s
Constitution, in its Preamble, tasks each of us with the duty to “establish
justice”, which necessarily commands recognition that there is a morality of
a “right vs. wrong”, and a “good vs. evil”. Respectfully, Your Honor’s
conduct in response to the above referenced lawsuit will demonstrate for the
public whether Your Honor is acting in the service of that morality, or
towards its destruction.
Sincerely,

Martin Reiner

2

i

APPENDIX G

iTiViTri'ffv."":

C^se i:20-cv-OOO3T-APM Document 7 Filed 04/02/20 Page 6 of 6

S
::::

ii

I

;

I

:;is

:SKv-:

RE USDC Case No. l:20-cv- 00031 & SC
OTIIS Case No. 18D3030
»

f

■E

m
'
,?
•4-:

Print Raw message

•ft1

i

IP*

Feb 24 at 1;47 PM

;;;;

a

1ft

Gonzalez Horowitz, Brenda (USADC) <brenda,

gonzalez.horowitz@usdoj.gov>

li-

i I.
ill
If

To:
"martinreinar1aw@yahoo.com* <maitinre|ne?te
@yahooxom>

1
-*

If.

r'’■
l

i
<

Good afternoon Mr. Reiner

•y;:

: writ-.'

Si
£

SSno
T re^rdSR®'n*‘!® Roberts' 20»«. which you are
in thirmatter l touff! AUSAfslSned “ reP"**nt »<* federal Defendants

i-

ft

is:

■J

i.

x
=:

: KSK32SS2* - -ie.-iSS?

I shortly

ft
*ft

I have received a copy of a memorandum you have identified as a settlement
demand, and I will get back to you with the Government's response.

i

m

Best,
Brenda

' ft:

SI

‘4;

::

Assistant United States Attorney
Ph: (202) 252-25121 IiMda.Gomaiez.Horowitz@,f^ni aa„

If

:::

:::
»•

■|1

:s

::>•

:4:

APPENDIX H

Additional material
from this filing is
available in the
Clerk's Office.

